<html>
<title> - INS REFORM AND BORDER SECURITY ACT OF 1999</title>
<body><pre>[Senate Hearing 106-813]
[From the U.S. Government Printing Office]





                                                        S. Hrg. 106-813

               INS REFORM AND BORDER SECURITY ACT OF 1999

=======================================================================

                                HEARING

                               before the

                      SUBCOMMITTEE ON IMMIGRATION

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSIONS

                                   on

                                S. 1563

     A BILL TO ESTABLISH THE IMMIGRATION AFFAIRS AGENCY WITHIN THE 
             DEPARTMENT OF JUSTICE, AND FOR OTHER PURPOSES

                               __________

                           SEPTEMBER 23, 1999

                               __________

                          Serial No. J-106-51

                               __________

         Printed for the use of the Committee on the Judiciary



                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
68-415                     WASHINGTON : 2001


                   SENATE COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                 ______

                      Subcommittee on Immigration

                  SPENCER ABRAHAM, Michigan, Chairman

ARLEN SPECTER, Pennsylvania          EDWARD M. KENNEDY, Massachusetts
CHARLES E. GRASSLEY, Iowa            DIANNE FEINSTEIN, California
JON KYL, Arizona                     CHARLES E. SCHUMER, New York

                   Lee Liberman Otis,  Chief Counsel

                 Melody Barnes, Minority Chief Counsel

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Abraham, Hon. Spencer, U.S. Senator from the State of Michigan...     1
Feinstein, Hon. Dianne, U.S. Senator from the State of California     4
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     7

                    CHRONOLOGICAL LIST OF WITNESSES

Statement of Hon. Doris Meissner, Commissioner, Immigration and 
  Naturalization Service, U.S. Department of Justice, Washington, 
  DC.............................................................     9
Panel consisting of Paul M. Berg, chief, Del Rio Sector, U.S. 
  Border Patrol, and chief, Chief Patrol Agents Association, Del 
  Rio, TX; Warren R. Leiden, Berry, Appleman and Leiden, San 
  Francisco, CA, on behalf of the American Immigration Lawyers 
  Association; Rachel S. Yoskowitz, director, Immigration and 
  Citizenship Services, Jewish Family Service Metro Detroit, 
  Detroit, MI; T.J. Bonner, president, National Border Patrol 
  Council, Campo, CA; and Richard J. Gallo, national president, 
  Federal Law Enforcement Officers Association, Northport, NY....    27

                ALPHABETICAL LIST AND MATERIAL SUBMITTED

Berg, Paul M.:
    Testimony....................................................    27
    Prepared statement...........................................    30
Bonner, T.J.:
    Testimony....................................................    44
    Prepared statement of T.J. Bonner, president, National Border 
      Patrol Council, and Charles J. Murphy, president, National 
      Immigration and Naturalization Service Council.............    46
Gallo, Richard J.:
    Testimony....................................................    48
    Prepared statement...........................................    50
Leiden, Warren R.:
    Testimony....................................................    35
    Prepared statement...........................................    36
Meissner, Doris:
    Testimony....................................................     9
    Prepared statement...........................................    20
Yoskowitz, Rachel S.:
    Testimony....................................................    40
    Prepared statement...........................................    42

 
               INS REFORM AND BORDER SECURITY ACT OF 1999

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 1999

                               U.S. Senate,
                       Subcommittee on Immigration,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:14 p.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Spencer 
Abraham (chairman of the subcommittee) presiding.
    Also present: Senators Kyl and Feinstein.

OPENING STATEMENT OF HON. SPENCER ABRAHAM, A U.S. SENATOR FROM 
                     THE STATE OF MICHIGAN

    Senator Abraham. The Subcommittee on Immigration will come 
to order. I want to thank everybody who is here in attendance 
and apologize for our slightly late start today, but we have 
had a number of activities going on and constituents that have 
kept us a bit late.
    I want to welcome Commissioner Meissner. We will hear from 
her soon. I thank Senator Feinstein for being with us. I know 
she is very interested in this area and we look forward to 
working together on developing some of these topics today and 
in the days ahead in further detail.
    I am going to make a brief, or maybe not so brief, opening 
statement here today and will turn to Senator Feinstein, and if 
Senator Kennedy or any of the other members are here and wish 
to make opening statements, we will have an opportunity before 
we start the panels and then sort of play it by ear a little 
bit once we do.
    Today, our subcommittee is here to examine the INS Reform 
and Border Security Act, a bill which I introduced just before 
the end of the session in August along with Senators Kennedy 
and Hagel.
    There is widespread agreement today, I think, that there 
are serious problems as to how the Immigration and 
Naturalization Service handles its service and enforcement 
functions. We understand that no structure is going to result 
in perfect enforcement or perfect service. However, the current 
problems are too large to ignore and I believe that fundamental 
structural changes should be made.
    It should not be the case, whether it is in Michigan or 
Mississippi or Texas, that individuals who are arrested for 
flouting our laws are let go because of a lack of adequate 
detention space or because of a breakdown in detention policy.
    It should not be the case that in places like Arizona and 
California, ranchers and other residents are endangered by 
people streaming across their property and are unable to obtain 
any real Federal response.
    It should not be the case that an individual such as serial 
killer Resendez Ramirez, who had been deported by the INS three 
times on account of prior crimes, could be apprehended at the 
border eight times since January 1998 but allowed to go free. 
This happened once after the Houston police had alerted INS 
that Ramirez was a murder suspect. Had he instead been detained 
and prosecuted that eighth time, two people who were killed 
would likely still be alive today.
    Simply put, on the enforcement side, illegal immigration is 
too high and the INS is not adequately structured, in my 
judgment, to be able to be equipped to handle this serious 
problem. I believe that genuine INS reform can help reduce 
illegal immigration and substantially strengthen our 
enforcement capacity.
    On the service side, the situation is equally troubling. It 
should not be the case that individuals who play by the rules 
have to wait, in some cases years, to become citizens or lawful 
permanent residents. It should not be the case that individuals 
cannot receive updates on the status of their cases because too 
often their files have been lost or misplaced or the computer 
has no record of their applications.
    It should not be the case that a Department of Justice 
Inspector General audit concludes that, year in and year out, 
the INS has not established effective internal controls to 
ensure that accounting records and other relevant financial 
information are adequately maintained to ensure that taxpayer 
money is not being wasted. Such waste causes both service and 
enforcement needs to go unmet.
    I just might add that each of the contexts which I have 
referenced here are situations which our office has heard about 
from constituents, and I know we are not the only Senatorial 
office to hear that.
    The legislation we are discussing deals with important 
structural issues that are, I believe, at the root of many of 
the problems we see today. While structural changes alone may 
not solve all of the problems, I am convinced that it will help 
with many.
    As I said 2\1/2\ years ago when I first became chairman of 
the subcommittee, the INS has been charged with performing dual 
missions, neither of which will be performed well until these 
missions are separated. We cannot expect the INS to be the good 
service provider by day and the tough cop by night.
    I believe that a broad consensus on this fundamental point 
has been reached across party lines over the last 2\1/2\ years. 
Permitting the INS to move forward with its current structure 
and organization only ensures an endless recurrence of the same 
problems we have seen.
    These problems exist not only at the national level, but at 
the local level, as well. District offices around the country 
combine service and enforcement functions. These offices are 
run by district directors, who are not required to have law 
enforcement backgrounds, with the result that enforcement often 
suffers. However, if a district director has exclusively a law 
enforcement background, it is possible that we will see service 
suffer.
    Some say we should reorganize INS from within rather than 
engage in fundamental reform, but I believe that approach will 
not enjoy the confidence of Congress, law enforcement, 
immigrant advocates, or the general public. It will be widely 
viewed as trying to maintain the status quo, and in my 
judgment, seems unlikely to do enough to bring about the 
fundamental attitudinal changes at all levels that I think are 
needed.
    The INS Reform and Border Security Act, which we will be 
hearing about today, represents fundamental change. The 
legislation replaces the INS with a new Immigration Affairs 
Agency within the Department of Justice, led by a high-ranking 
official, that will contain two separate bureaus, the Bureau of 
Immigration Service and Adjudication and the Bureau of 
Enforcement and Border Affairs. This will allow for 
concentrated effort and personnel devoted to improving the 
respective service and enforcement functions. Inspections, 
which is a combined service and enforcement function, will be a 
separate entity within the Immigration Affairs Agency.
    The legislation also increases accountability by creating 
three Senate-confirmed positions, including the Director of the 
Service Bureau and the Director of the Enforcement Bureau. The 
bill also establishes the position of Chief Financial Officer 
in both the service and the enforcement bureaus, creating 
additional fiscal accountability.
    Accountability will become a two-way street. When the heads 
of separate service and enforcement bureaus are confirmed, then 
Members of Congress themselves will become more accountable 
because they will have played a hand in the approval of those 
individuals and participated in setting the benchmarks of 
success or failure for the heads of these new bureaus.
    This new structure should result in both enforcement and 
service improvements while allowing for the overall setting and 
coordinating of immigration policy. Separate chains of command 
within distinct bureaus will establish clear career paths and 
attract individuals most interested in one or the other bureau. 
Most importantly, it will increase accountability, particularly 
for senior-level personnel.
    Separating out enforcement will help ensure that 
enforcement is sufficiently supported and that individuals 
overseeing enforcement functions possess a law enforcement 
background. Moreover, the bill would move the enforcement 
bureau toward the best practices of law enforcement entities 
that are considered more effective. Finally, the bill would 
require the addition of 1,000 more Border Patrol in fiscal 
years 2002, 2003, and 2004.
    We should also see important service improvements. 
Separating service and enforcement will help ensure that those 
individuals working in the service side understand their jobs, 
to include the delivery of fair, equitable, accurate, and 
courteous service. In fact, the legislation requires that all 
employee evaluations include the fair and equitable treatment 
of immigrants as a top priority.
    The legislation also creates the Office of the Ombudsman, 
which will assist individuals in resolving service or case 
problems and identify and propose changes in the service bureau 
to improve service. The ombudsman can appoint local 
representatives to resolve serious service breakdowns. In 
addition, the legislation models the service bureau's 
organization on the Social Security Administration by creating 
regional commissioners and area directors charged with service 
implementation.
    To improve the culture of employees, the bill includes a 
series of measures, including employee buyouts and the ability 
to bring in outside management executives, that are modeled on 
those passed by Congress in the 1998 IRS reform bill.
    The legislation has already achieved support from those 
interested in different aspects of the execution of our 
immigration laws, having been endorsed by the Chief Patrol 
Agents Association, the Federal Law Enforcement Officers 
Association, and the American Immigration Lawyers Association.
    I look forward to today's hearing and to receive comments 
and feedback from the various parties who will participate, and 
I do want to finish with a comment for Commissioner Meissner.
    I want to stress something I have said at other hearings, 
right from the inception when I became chairman. These problems 
with the Immigration and Naturalization Service are not simply 
the problems of today. They have been problems that have 
existed for a long period of time, and the purpose of the 
legislation which we are offering, that we have introduced, is 
not to single out for particular criticism any one commissioner 
or any one group of people working at INS. I believe that these 
problems are longstanding and I believe that, as opposed to 
allowing them to continue, we have an obligation to examine the 
various ways that we can address them, both from the standpoint 
of resources, which we frequently do, but also from the 
standpoint of structure and significant policy reform the way 
we are hopefully going to be able to do during this process.
    I just want to make sure that we convey those sentiments, 
because the goal here is truly to address the problems. I think 
that Commissioner Meissner in previous testimony has 
acknowledged a number of these and has sought, I think in good 
faith, internally to address them. But we need to, I believe, 
examine them now from a broader perspective and I look forward 
to today's hearing and its aftermath as part of that process.
    At this point, I will finally finish and turn to Senator 
Feinstein for any opening statement she may wish to make, and 
then we will go to Senator Kyl. Thank you all for being here.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Senator Feinstein. Thanks very much, Mr. Chairman. Let me 
just say, I think your bill is a major step forward and I look 
forward to working with you in a couple of areas.
    Commissioner Meissner assumed the helm of the agency in 
1993 in the midst of great turmoil. I at that time was new to 
this committee. And in 1996, Congress passed the most 
comprehensive illegal immigration reform measure, which 
dramatically increased the INS's enforcement and service 
responsibilities.
    Funding for the INS has more than quadrupled in the last 
decade, from $884 million in fiscal year 1989 to $4 billion in 
fiscal year 2000, and in that time the demands on INS have 
outpaced its capacity to manage them. As a result, the agency, 
I believe, despite the strongest of efforts, has been unable to 
keep up with its increasing size and complexity of mission.
    In light of these trying circumstances, I would like to 
acknowledge the great strides that Commissioner Meissner has 
made in taking INS to a new level of professionalism, 
developing a strategic plan and taking the initial steps toward 
fundamental reform within the agency. I truly do not believe 
anyone could have done better.
    However, even with these best efforts, it has become very 
clear that the problem lies not solely with the organization's 
management, but also with the agency's structure. The U.S. 
Commission on Immigration Reform studied the issue and found 
that, despite increases in funding and authority, the current 
Federal immigration structure leads to ``mission overload,'' 
resulting in ineffective management of the four core functions 
of the system, border and interior enforcement, enforcement of 
immigration-related employment standards, adjudication of 
immigration and naturalization applications, and consolidation 
of administrative appeals.
    According to the Commission at the time, mission overload 
results from the fact that the agency charged with implementing 
our immigration laws have so many responsibilities that they 
are unable to manage them all effectively and efficiently, and 
with an immigration landscape that is growing in complexity and 
size, no one agency could have the capacity to effectively 
manage every aspect of immigration policy.
    So finding a solution to these challenges is critical, 
given that we currently have an estimated five million illegal 
aliens in this country and over 300,000 newly-arriving illegal 
aliens settling in the U.S. every year. Fifty percent of 
whatever the number, if it is 300,000 or 400,000 or 500,000, 50 
percent settle in California. One-point-seven million lawful 
permanent residents are languishing in backlogs waiting to 
become American citizens. More than 650,000 are waiting in 
California alone.
    More than one million people are in a second less-noticed 
INS backlog, who have had to wait sometimes as long as 39 
months for the INS to process their green card applications, 
and this situation will only get worse as 900,000 applications 
for new green cards are pending, in addition to the 185,000 set 
for renewal.
    Finally, countless numbers of spouses and minor children of 
legal immigrants, whose precise numbers are not available from 
the INS, who followed the law and played by the rules, have 
been waiting to reunite with their immediate family for up to 
10 years.
    In the meantime, the enforcement arm of the agency is 
confronting problems of its own. According to a recent article 
in the San Diego Union Tribune, progress in containing illegal 
migration through the San Diego border may be breaking down--
may be breaking down. The article cites an INS internal memo 
stating that people with fraudulent documents are now getting 
caught repeatedly and returned to Mexico without facing legal 
sanctions. I had the opportunity to discuss this with the 
Commissioner earlier today.
    Moreover, I think many of us are aware of the recent story 
of the alleged mass murderer, Rafael Resendez Ramirez, who 
repeatedly eluded law enforcement officials. Records show that 
he had been deported at least four times and arrested at least 
ten times. Much of his record is still unclear, given that the 
FBI's Ten Most Wanted List included 30 aliases and numerous 
Social Security numbers for him.
    This case demonstrates a weakness. Now, we thought it was 
in the IDENT system. The Commissioner earlier today said that 
the Ten Most Wanted List had not been entered into the IDENT 
system, and I asked her the question, well, what about other 
lists? We still need to respond to that.
    I mean, this is a serial killer who came back and forth 
across the border. Although he was arrested or stopped, nobody 
knew apparently who he was or what alias he was using and the 
Most Wanted List had not been entered in the computer system. 
That, to me, is a major oversight.
    Under these circumstances, any legislation that would 
correct this type of recurring situation, I think is deserving 
of our attention. But, Mr. Chairman, I want to say that you 
have taken, I think, a major step in a very positive direction. 
I believe this bill sets the stage for curing a number of 
maladies in the system. It would make immigration a higher 
priority within the Justice Department by elevating the new 
Immigration Affairs Agency into a higher position within the 
Department. That is good, in my view. It would create two 
separate bureaus, one for enforcement and one for service, 
thereby streamlining the two missions and responsibilities into 
manageable workloads.
    One of the criticisms I had of our Customs Department was 
that prior to this new Customs Commissioner Ray Kelly, it had a 
mixed mission. It was to promote trade and also enforce the law 
at the border, and that mixed mission, I think, is very 
difficult for any organization to carry out. The separateness 
of the services under a common head would enforce 
accountability, enable better communication and cooperation 
between national headquarters and the field offices, and, I 
believe, instill a clearer sense of purpose and direction 
within the field offices. I mean, you would know whether you 
were service or enforcement.
    It would enable Congress to exercise more effective 
oversight by requiring that the two bureau chiefs, as well as 
the director, be Presidential appointments subject to Senate 
confirmation. I have talked a little bit to the Commissioner 
about this. I understand her reservations. From the position of 
someone who sits as part of an oversight body and has for some 
time, I think some autonomy is actually healthy, provided there 
is cooperation and supervision at the top. But I think that is 
something that I am certainly willing to discuss further.
    And your legislation would create internal checks and 
controls to better ensure the quality of both service delivery 
and enforcement activities. It would also authorize an 
additional 1,000 Border Patrol agents over the next several 
fiscal years.
    I think now is the time, Mr. Chairman, to finish what was 
started in the 1996 immigration reform by creating an 
implementation structure that will give the immigration laws 
full force in curbing illegal immigration and improving 
services to legal immigrants, and I think your bill goes a long 
way to doing that.
    I want to just mention publicly something that I mentioned 
to you privately, and that is that as efforts like Operation 
Gatekeeper and others become more effective in deterring 
illegal immigration in their immediate area, they also not only 
push it to other areas, such as Douglas, AZ, but they also put 
intense pressure on ports of entry. In California, we have, I 
believe, problems in our ports of entry, and that is not only 
on the border, that is coming in from the water, as well. We 
have this problem particularly with drugs. So I think the 
ability to provide inspections at those ports of entry is 
really important if we are going to have enforcement be given 
the tools that it needs.
    I look forward to the Commissioner's testimony and working 
with you, Mr. Chairman, to remedy some of these things.
    Senator Abraham. Senator Feinstein, thank you, and we look 
forward to working together with you, as well, and anybody else 
with interest in this.
    Senator Feinstein. May I ask your consent to enter the 
ranking member's statement into the record, please?
    Senator Abraham. Thank you. We will do that.
    [The prepared statement of Senator Leahy follows:]

 Prepared Statement of Hon. Patrick J. Leahy, a U.S. Senator From the 
                            State of Vermont

    I am attending this hearing to demonstrate the importance of INS 
reorganization to me and to the people of Vermont, as well as to take 
advantage of the opportunity to express some of my concerns about the 
INS generally to Commissioner Meissner.
    I Would also like to welcome the other panelists who have traveled 
here today to offer their thoughts on the INS Reform and Border 
Security Act. I appreciate the work that Mr. Berg, Mr. Bonner, and Mr. 
Gallo do to further our law enforcement objectives. And I am a great 
admirer of the work done by advocates such as Mr. Leiden and Ms. 
Yoskowitz, who labor so diligently to ensure that the American dream 
remains attainable for those who emigrate to the United States.
    As many of you know, I have a great number of constituents who 
work, for the INS, and I believe that the quality of their work is 
unsurpassed. On too many occasions in the past, their effectiveness and 
dedication were overlooked here in Washington, and plans were made that 
would have put their careers in jeopardy. Faced with that prospect, I 
have worked with Commissioner Meissner to ensure that my constituents 
were treated fairly. As I sit here today, I am hopeful that the latest 
talk of reorganization will proceed without overlooking the great 
efficiency of the Eastern Regional Office, Law Enforcement Support 
Center and Debt Management Center in South Burlington, the Vermont 
Service Center and Sub-Office in St. Albans, the Swanton Border Patrol 
Sector, and our border crossing personnel.
    That being said, I am very interested to hear the Commissioner's 
thoughts on the restructuring bill that my distinguished colleagues 
have introduced. I value her opinion quite highly, and believe that she 
has done a wonderful job in a very difficult position. I think that the 
Commissioner and all of us would agree that there is room for 
improvement at the INS, and I am open to persuasion that this 
restructuring bill could be the proper vehicle.
    I would also like to ask the Commissioner today about her views 
concerning two bills that I will be sponsoring to revise portions of 
the 1996 immigration legislation, as well as about the INS' recent 
handling of asylum cases involving domestic violence.
    First, I have introduced the Fairness to Immigrant Veterans Act, 
which would restore to U.S. veterans the right to go before an 
immigration judge for a meaningful hearing before being deported, and 
also to have a Federal court review any deportation decision. As you 
know, those rights were taken away by the legislation the Congress 
passed in 1996. I am happy to say that my bill has received the support 
of numerous veterans' groups, and I am sending a letter to my 
colleagues that some of those groups have written on behalf of the 
legislation, as well as a letter from the American Legion demonstrating 
its support for this bill. I hope that my colleagues will join with me 
to recognize that at the very least, we owe our veterans the chance top 
explain themselves before we remove them from our country for a past 
misdeed.
    Second, I am planning to introduce in the very near future a bill 
that will revise our procedures for expedited removal. During the next 
week, I will be sending a letter to colleagues from both sides of the 
aisle asking for their support and sponsorship of this bill, which 
would limit the use of expedited removal to times of immigration 
emergencies. The faults of our current expedited removal system were on 
display once again earlier this year, when it became clear that at 
least two Kosovar refugees had been summarily excluded from the United 
States even after unrest in Kosovo was on display on the nightly news. 
Our current system entrusts too much power to lower-level INS officers 
who, as conscientious and hard-working as they may be, are simply not 
experienced enough to make what is often a life-and-death decision to 
immediately remove a foreign national who may be seeking refuge on our 
shores.
    Third, I have serious concerns about the INS' handling of the 
asylum claims of two victims of severe domestic violence, Rodi Alvarado 
Pena, a Guatemalan woman, and a young woman from Mexico whose identity 
has been protected. Ms. Pena escaped from a husband who savagely beat 
her in Guatemala, and he has said he will kill her if she returns 
there, The young Mexican woman was severely abused by her father, in 
part because she attempted to stop him from beating her mother. In both 
cases, administrative judges granted the asylum requests of these 
abused applicants. And in both cases, the INS appealed those grants of 
asylum to the Board of Immigration Appeals, which reversed the 
administrative judges. I question why the INS found it necessary to 
appeal the eminently reasonable decisions to allow these abused women 
to remain in the United States. If prosecutorial discretion was not 
appropriate here, when would it be appropriate? In particular, I would 
like to know why these cases were treated differently from previous 
decisions granting asylum to the victims of domestic violence, which 
the INS did not appeal. (See In re A and Z (IJ (Arlington) Dec. 20, 
1994); In re M and K, (IJ (Arlington) Aug. 9, 1995).) Finally, I would 
like to know what role, if any, the INS' 1995 asylum guidelines 
recognizing gender-based persecution and the 1998 guidelines on the 
persecution of children played in the INS' handling of these asylum 
cases.

    Senator Abraham. I am sure Senator Kennedy will also have a 
statement, whether or not he is able to make the hearing today, 
and we will enter any statements that members would like to be 
part of the record.
    I turn now to our Senator from Arizona, Senator Kyl. Thank 
you for being here.
    Senator Kyl. Thank you, Mr. Chairman. I will just make a 
brief comment. I think that both you and Senator Feinstein have 
well summarized the frustration that we have experienced, the 
hope that some kind of legislation like this for reorganization 
will make a big difference. Certainly, Commissioner Meissner 
and I have discussed a lot of the problems that we think might 
be aided by reorganization, which frequently is not the answer 
to problems, but in this case, as Senator Feinstein pointed 
out, there has been such a growth in the problem and the 
resources put against the problem on both the service side and 
the law enforcement side.
    You have a different situation today than you did in the 
past, and that does suggest that some reorganization could be 
very, very helpful here, and I suspect that the three of us and 
Commissioner Meissner are in relative agreement on the kinds of 
things that would be useful. So we are looking forward to her 
testimony.
    The only other thing I want to say, Mr. Chairman, is that I 
think Senator Feinstein just made a very important point, and 
that is we should recognize that the pressures here for illegal 
immigration and legal immigration are immense, and whatever we 
do in one area will result in reactions in another area. The 
law of physics almost applies here. There is an equal and 
opposite reaction when you apply pressure.
    So, indeed, when we helped to close down the border near 
San Diego, they came over to Arizona, and we are trying to deal 
with them now. We have about a half-a-million apprehensions a 
year just in this one segment, and you mentioned Douglas, AZ. 
That is the Tucson sector, where Douglas is. Arizona is second 
only to McAllen, TX, in the amount of marijuana seized, as 
well, about a quarter-of-a-million pounds per year.
    One of the things that I have stressed is the need for INS 
to do its very best to adhere to the law that we passed, that 
the President signed, that calls for certain actions, such as 
the training and deployment of 1,000 agents per year, net, for 
a period of 5 years. We know what works. It has been 
tremendously beneficial to get those agents on the ground. I 
think we can accept nothing less than our best effort and full 
compliance with the statute.
    I think sometimes it appears to me that INS is satisfied 
with less than full compliance, but my constituents are clearly 
not. I would hope that as we proceed here, that we continue to 
focus on the requirements of the immigration law and use our 
very best efforts to get the agents on the ground, and as 
Senator Feinstein pointed out, to understand that we will need 
technology, we will need inspectors, as well as Border Patrol 
agents to solve this problem. We, again, know what works. We 
can solve the problem if we make the commitment, and I hope 
that the hearings that you will be conducting, Mr. Chairman, 
and this legislation will help us focus on the problem so that 
we can produce that necessary commitment.
    Senator Abraham. Senator Kyl, thank you.
    At this time, we will turn to Commissioner Meissner. We 
welcome you. We are happy to have you here and look forward to 
your testimony today. Commissioner.

STATEMENT OF HON. DORIS MEISSNER, COMMISSIONER, IMMIGRATION AND 
NATURALIZATION SERVICE, U.S. DEPARTMENT OF JUSTICE, WASHINGTON, 
                               DC

    Ms. Meissner. Thank you. Thank you very much. Mr. Chairman, 
members of the subcommittee, I am very pleased to be here today 
to discuss the critical issue of how the Nation best 
administers its immigration policy and system as we prepare to 
enter the next century.
    In April 1998, this administration sent you a framework for 
change through restructuring. Last summer, we sent you 
legislation to endorse that change. And this July, we gave you 
a detailed restructuring proposal for how that change could 
work. I want to fundamentally change this agency and I want 
your approval to move forward as soon as possible with the kind 
of change that will lead to improved performance.
    Realistically, restructuring would not become effective 
until the next administration arrives. You, as members of the 
subcommittee, are likely to be here at that time. I, of course, 
will not. The reason I care about the issue is because I 
believe, based on more than 20 years' experience in the 
immigration arena, that we must have an immigration system that 
is well positioned both to enforce our immigration laws 
effectively and to continue our tradition of welcoming 
immigrants in the years ahead.
    Today's global society is challenging this Nation's 
immigration system as never before, from unforeseen world 
events, such as Hurricane Mitch in Central America, to 
increasingly sophisticated human smuggling operations, to 
dramatic changes in our immigration laws, and we can expect 
more complex challenges ahead.
    We have met these new challenges and goals head on and have 
achieved significant successes, from gaining control of key 
areas along the Southwest border, to fixing an asylum system 
that was badly broken, to dismantling the largest, most complex 
alien smuggling ring ever encountered by Federal authorities, 
to removing a record number of criminal aliens for the fifth 
straight year. And, from 1993 to 1998, 5.6 million immigrants, 
more than the total in the previous 30 years combined, have 
applied for citizenship. We have been able to congratulate 3.3 
million of them as new U.S. citizens.
    At the same time, I am all too aware of the problems that 
we have. Despite real progress, I know that consistent, 
courteous, and timely customer service is not uniformly 
provided. Mission conflict at the local operational level can 
impede accountability and the current bureaucratic chain of 
command often leads to confusion in roles and hampers 
efficiency.
    Mr. Chairman, I believe that you and the committee know 
that I have been working to solve these and many other 
problems, but the next logical step is fundamental structural 
change that will allow for a fuller transformation from a 
strained structure designed for a different era to a modernized 
structure equipped to meet the challenges of today and 
tomorrow. We need Congressional action to accomplish it.
    Mr. Chairman, the administration's proposal and the 
legislation that you have introduced seek to address the 
problems in very similar ways. Both represent bold, far-
reaching changes designed to provide for better customer 
service and improved law enforcement. Both call for a clear 
split between enforcement and services to provide better 
results, improve accountability, and strengthen the management 
of each of these important functions. And, both advocate 
organizing these two distinct functions into separate chains of 
command within the Department of Justice.
    Most importantly, both provide for a single policy and 
management official to be responsible for a new immigration 
agency within which these interrelated missions are integrated. 
This integration lies at the heart of any meaningful 
restructuring and we strongly support a national integrated 
structure.
    While we share many ideas about the solutions, we also must 
be wary of going too far with detail in legislation so that we 
preserve some flexibility in the immigration system to meet 
unforeseen challenges that are ahead.
    I have included the administration's full proposal as part 
of the record. It represents more than a year's work of 
planning how a separation of enforcement and services would 
actually work. Let me outline just a few of the key features.
    The administration's proposal calls for fundamental change 
by eliminating the current INS regional and district offices 
where enforcement and service functions today are commingled 
and creating two new mission-centered organizations that 
replace them, one for immigration services, one for law 
enforcement. Each would be headed by a senior-level executive 
responsible for a distinct chain of command who would report to 
a full-time presidentially-appointed official with 
responsibility to manage immigration matters as one coherent 
immigration system.
    The proposed structure for one of the new chains of 
command, immigration services, leverages the work that INS has 
already begun in reengineering the naturalization program and 
by establishing a newly-streamlined immigration services 
division, along with a national customer service center, which 
is expanding just this month. A new services structure would 
establish a senior-level customer service advocate who would be 
responsible for customer service training and problem 
resolution.
    Consolidate all remote operations, such as our telephone 
service and card centers with newer efforts, such as the 
availability of forms and other information on the Internet and 
direct mail, so that our customers can get ready access to the 
information that they need.
    We would consolidate our asylum program with our overseas 
refugee and humanitarian affairs programs and maintain the 
current domestic asylum offices.
    And we would expand upon the more than 120 new community-
based fingerprinting sites that we opened last year so that we 
can provide our most customer-focused activities directly in 
the communities that they serve.
    With respect to our enforcement mission, the new structure 
would integrate all enforcement operations, including 
inspections, and consolidate domestic and international 
enforcement programs within one chain of command so as to have 
seamless enforcement between the border and interior locations 
and more effectively coordinate such actions as the large 
antismuggling operations we are seeing.
    We would create community advisory panels at the national 
and area levels to provide community input regarding 
enforcement matters, and we would centralize the detention 
program at the national level to support our enforcement 
operations and to ensure uniform standards are followed and 
consistent practices are utilized.
    Because our approach to inspections differs from that in S. 
1563, let me say a word about inspections. As our border 
enforcement efforts become increasingly successful and the 
smuggling of illegal aliens becomes more sophisticated, the 
importance of immigration inspectors in our enforcement efforts 
grows. Immigration inspectors, by virtue of their training, 
duties, and responsibilities, and the hazards to which they are 
exposed, are much more closely aligned with law enforcement 
officers than with other types of government inspectors.
    Inspectors conduct more than 500 million inspections every 
year. The vast majority involve law-abiding individuals. At the 
same time, our inspectors are increasingly at risk in 
performing their functions. Because of our border enforcement 
successes between the ports of entry, we are witnessing 
increasing activity and sophistication of criminal 
organizations that profit by the smuggling of people, drugs, 
and other contraband, and are turning to vehicular inspections 
lanes at the ports of entry, commercial airports, private 
aircraft landing fields, and ship dockyards.
    When an inspector is viewed as an enforcement official 
charged with enforcing our Nation's immigration laws, it does 
not mean that that individual loses the ability to treat others 
with respect, nor loses the ability to apply the law fairly, 
based on proper training. We ask for an analogous form of 
balance from police officers on our streets, who are charged 
with enforcing laws while exercising appropriate discretion in 
carrying out their duties and serving the community with 
respect, courtesy, and professionalism.
    So while inspectors have various roles, including welcoming 
visitors to the United States, facilitating commerce through 
timely processing, and adjudicating immigrant claims, they all 
compliment a core border enforcement role that inspectors 
perform.
    The integrated enforcement structure that we have proposed 
is designed to meet the needs of a modern professional law 
enforcement agency that can deal with the complexities of 
immigration law and handle crimes that often extend far beyond 
our boundaries, while also upholding the civil rights and the 
courtesy due to all individuals with whom we come into contact.
    Separate and apart from the integrating and coordinating 
structure at the top of a new agency, our proposal would 
provide for unified support operations that would handle 
support needs such as records and a national file center, 
training in human resource functions, automation, data support 
and technology, and administrative support. The importance of a 
unified, responsive support operations structure cannot be 
overstated.
    While immigration enforcement and services are separate 
functions, they are inextricably linked and need to be managed 
as part of an integrated structure under the leadership of one 
full-time appointed official. This individual should be the 
focal point of accountability and the policy voice for 
immigration by being directly responsible and accountable for 
both services and enforcement operations. In this way, the 
Government can maintain the crucial balance between enforcement 
and services that is needed for a coherent national immigration 
policy and system and effective application of our immigration 
laws.
    We live in an era of large-scale immigration and increasing 
international migration pressures. We need greater, not less, 
cohesion and stronger consolidation and interaction among 
functions in order to serve the broad public policy needs of 
our time.
    As you mentioned, how to organize immigration governance 
has been debated for more than 100 years as a response to 
problems in the immigration bureaucracy that transcend 
particular administrations or historical periods. The 
administration's proposal represents fundamental reform that 
will strengthen the immigration system. We should not let the 
frustrations we share lead us to weakening our institutions or 
our ability to carry out our responsibilities that are mutually 
reinforcing instead of being fundamentally incompatible.
    Mr. Chairman, I am committed to change and I look forward 
to working with you and other members of the Congress in moving 
forward to restructure INS and reform our system in a manner 
that best serves the Nation. Thank you, and I am very happy to 
take your questions.
    Senator Abraham. Commissioner, thank you very much. I just 
would like to indicate that members of my staff and I 
appreciate the working relationship that we have had and the 
cooperation we have had with your office. As I said at the 
outset, our goal here is to begin moving as constructively and 
in a coordinated way with all parties to try to find solutions 
to these problems.
    We will begin the questioning with Senator Feinstein. 
Senator Feinstein.
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Commissioner Meissner, let me ask you a question not quite 
related to this bill but one that I have not been able to get 
an answer to. Recently, I was visited by the former defense 
minister of Colombia. He is the former commander of the 
Colombian armed forces. What he said is that 40 percent of 
Colombia is essentially now under the control of 
narcoterrorists. He said that 300,000 people have fled the 
country, 60,000 to the United States, and urged that they be 
given refugee status when they come here because they faced 
reprisal going back. He said that the narcoterrorists had 
kidnapped 1,500 civilians, 250 soldiers, and 250 police 
officer, and that it was a very serious situation in Colombia.
    We tried then to verify that, that there were 60,000 
refugees from Colombia, and nobody can give us an answer. Can 
you?
    Ms. Meissner. I would have to check the statistics on our 
asylum application caseload. I am unaware that we have seen any 
substantial spurts or increases in the filings of asylum 
applications from Colombia. We, of course, have been very aware 
of the precarious circumstances in that country and watch these 
matters across the board, not only from Colombia, but other 
countries. Certainly, we have----
    Senator Feinstein. May I get an answer so that I----
    Ms. Meissner. We will provide that to you. I think that 
what generally happens in cases like this is that when there is 
trouble like this in a country, often, people who have 
multiple-entry visas to the United States or who have tourist 
or business visas exercise that visa prerogative and wait to 
see how the situation is developing.
    So it would not be surprising that, on the one hand, there 
has not been a substantial increase in the asylum caseload, but 
on the other hand, there may be more Colombians here as 
visitors than would typically be the case because they are 
people that already had visas of one sort or another or 
legitimately can obtain a visa to come to visit the United 
States. So I would suspect that his use of the word ``refugee'' 
was very generic, as compared with the legal term that we would 
use.
    Senator Feinstein. This was that they fled for their lives. 
He was making a plea that they be able to remain here because 
he felt they would be killed if they went back. I am just 
trying to find out to verify that.
    Ms. Meissner. Right. We will----
    Senator Feinstein. It seems to me that INS ought to be able 
to verify it.
    Ms. Meissner. Oh, yes. We have those figures. I just do not 
have them with me.
    Senator Feinstein. Could you provide them?
    Ms. Meissner. Absolutely.
    Senator Feinstein. Thank you very much. In recent years, 
there has been a shortfall of funding for the adjudications 
functions of INS, which include the adjudication of visa, 
naturalization, and adjustment applications. At the same time, 
the examinations fee account has been used for functions which 
are not related to the processing of applications, such as 
detention, enforcement activities, audits, and infrastructure 
costs.
    The current Senate version of the C-J-S appropriations bill 
would transfer $49 million from the examinations fee account to 
the Executive Office of Immigration and Review. Unlike the 
House bill, S. 1563 attempts to deal with this issue by 
providing a firewall to ensure that fees paid by applicants for 
visa, adjustment, and naturalization services be spent on 
services and not diverted to other uses.
    Can you discuss the degree to which fees paid to the 
examinations fee account are currently being used for purposes 
other than providing services to applicants?
    Ms. Meissner. Thank you, Senator. That is a very important 
area. Let me first say that we strongly support the idea in S. 
1563 of a firewall and of fees that are paid by applicants 
going solely to processing of applications. That is what we 
believe fees should be used for and that is a situation where 
we are not able entirely in the current circumstances to 
control how fees are used.
    The Congress has assigned fee money to other than 
processing purposes from time to time. Several years ago, the 
Congress, indeed, assigned some of the penalty money for the 
adjustment of status applications that a provision existed in 
the law and assigned it for detention purposes. At the present 
time, some of the fee money pays for the international affairs 
program and for the asylum program, which are programs that do 
not generate fees.
    So the situation in which we find ourselves as an agency is 
in having a shortage of the required funding to process 
immigration applications because the entire fee receipts are 
not devoted to processing. That funding should be protected and 
some provision along the lines of S. 1563 would achieve that 
purpose.
    Senator Feinstein. And you believe the firewall currently 
in the draft of S. 1563 is adequate, then?
    Ms. Meissner. I believe that it is attempting to do what is 
required. We can work on refining it, if need be. But it is 
very important to protect those funds, and in addition to that, 
I believe that it is important to allow for appropriated 
funding of some kind for handling immigration applications. 
There is both a private purpose for people that are applying 
that is legitimate fee-based, but there is also a broader 
public purpose served in timely adjudication of immigration 
applications. So appropriations are valid here and we need to 
be making capital investments that improve the system and that 
should not entirely come from the fees.
    Senator Feinstein. My time is up. Can I ask just one more 
question?
    Senator Abraham. Yes.
    Senator Feinstein. S. 1563 contains a number of provisions 
that would require the Attorney General to provide a process 
for reviewing and acting upon various categories of 
nonimmigrant and other petitions within specified time limits. 
These include 30-day deadlines for some nonimmigrant petitions 
and a 90-day processing deadline for adjustment of status 
applications and immigrant visa petitions.
    While it is questionable whether such statutory processing 
deadlines are well-advised, it is important to note that there 
are no such deadlines for processing naturalization 
applications included in the bill. What do you think would be 
the consequences if we included statutory deadlines for 
processing these visas, naturalizations?
    Ms. Meissner. I would not favor writing processing times 
into legislation. I think that is an area where there needs to 
be some flexibility and legislation is not the best way to 
achieve the improvements that we all want in processing times.
    Were we to be implementing the way it is written at the 
present time, we would have to vastly increase the fees to 
those applicants in order to meet that 30-day processing time 
and we would be forced to apply our efforts to those 
applications that are mentioned and not in other areas, such as 
naturalization--actually, I cannot recall whether 
naturalization is mentioned or not.
    But I do think that we can achieve the same purpose or the 
same objective that S. 1563 is trying to achieve by having the 
Immigration Service's structure that is outlined in the bill, 
that is very similar to what it is that the administration has 
advocated, because it will allow for a total management focus 
and expertise and efficiencies much greater than we have been 
able to achieve to date, although I think we are showing that 
we know how to do it by the work that we have done on 
naturalization this year, and I believe that we need to have 
clear customer service standards that establish accountability 
for the agency and for others who are expecting their work to 
be done by us and we are developing those customer service 
standards.
    With naturalization, for instance, the standard is 6 months 
from filing to oath. We were there once a few years ago. Right 
now, we are not. We have cut the time in half for processing 
just in the last year. We are down to about 13 months----
    Senator Feinstein. Can I stop you on just that one point, 
because I would like the chairman and Senator Kyl to know that 
we were having a little dust-up on this point earlier in my 
office and you mentioned the Los Angeles office, where the 
waits have been so long, has in the last year cut the waiting 
time in half. I would just like to extend my commendation to 
the regional director there and thank him for his good work in 
that regard.
    Ms. Meissner. He will be very happy to hear that, but it is 
not just Los Angeles. We have cut the waiting time in half 
across the country, and----
    Senator Feinstein. In every office?
    Ms. Meissner. In every office, we are running now an 
average of 13 months, and a year from now, we will be back to 
the 6 months. So that is an example of a standard, of a 
customer service standard where we need to manage against the 
standard and resource against the standard so that there is 
consistency across the country. We are not where we want to be, 
but it is our commitment to be there.
    Senator Feinstein. I think that is real progress from where 
we were. I just want to say thank you to everybody that made it 
possible.
    Ms. Meissner. Thank you.
    Senator Abraham. Thanks. Senator Kyl.
    Senator Kyl. Thank you. I have one question about the 
legislation, which I will ask at the end, but first, let me 
reiterate. I think none of us believe that reorganization is a 
panacea. Much of it depends upon the commitment that I spoke of 
earlier.
    Two facts, and then three quick questions. No. 1, this 
year, this fiscal year 1999, INS trained only one-half, 
roughly, of the necessary agents, or the agents authorized 
under the 1996 Act.
    Fact No. 2, the administration asked for no funds to train 
1,000 agents for fiscal year 2000.
    The first question, will you submit a request for full 
funding to train 1,000 agents in fiscal year 2000, when through 
the regular budget process your requests are elicited from the 
Department of Justice and OMB?
    Ms. Meissner. The answer to that question is yes. That 
process is already underway.
    Senator Kyl. Thank you. Second, will you assure us that you 
will do your best to recruit 1,000 agents next year with the 
money that will be appropriated this year for that purpose?
    Ms. Meissner. The answer is absolutely yes. We are doing 
everything that we possibly can, including entirely redesigning 
our recruitment system, and I would want to say that we have 
more than doubled the size of the Border Patrol in 5 years with 
strong support from the Congress. We have met our hiring and 
training goals every single year in order to achieve that. This 
year has been the anomaly because we have run up against a 
very, very tight labor market and we are readjusting in an 
effort to overcome those problems.
    Senator Kyl. Part of that readjustment is to provide better 
benefits, particularly for the line agents, the GSA Level 9 
people who some of us have recommended should go to Level 11. 
Would it be your intention to include sufficient funding for 
that increase in salary for the bulk of those line personnel in 
the fiscal year 1998 budget request?
    Ms. Meissner. That is my objective.
    Senator Kyl. And as I understand it, that is about a $50 
million per year cost, more or less?
    Ms. Meissner. It is in that neighborhood.
    Senator Kyl. OK; one of the things that the legislation 
does not do, but you have talked to me personally about, as I 
understand it, in its current version, is to include the 
inspector function under the enforcement responsibilities. It 
is my understanding that you believe that it would be better 
put in the enforcement side rather than the service side of the 
equation. If that is correct, could you explain your reasons 
for that?
    Ms. Meissner. That is correct. It is the fact that 
inspections represent, as much as anything in the Service, the 
mixture of our responsibilities that have to do both with 
enforcement and with granting of benefits. However, inspections 
is more, we believe today, like an enforcement function than 
ever before. It is a critical piece of our border efforts.
    Everything that we have done, and you and Senator Feinstein 
are particular witnesses to this on the Southwest border, 
everything that we have done to improve the effectiveness of 
the Border Patrol has been done in coordination with the ports 
of entry. We actually have increased our inspections staffing 
at the Southwest border more steeply than our Border Patrol 
staffing.
    That is an underknown fact, but there has been more than a 
100-percent increase of inspectors at the Southwest border over 
the course of the last 4 to 5 years in this buildup and that is 
because we recognized from the very outset that the two, as you 
said, action-reaction. One action creates a reaction. Whatever 
you do to tighten and improve between the ports has an effect 
of increased pressures at the ports. So that effort at 
connection and coordination is extremely important.
    In addition to that, over the longer term, technology will 
be increasingly helpful to us where legal crosses are 
concerned, technology in terms of identity cards, advance 
passenger lists that we now get from the airlines which we can 
check against our databases before the airplanes even land at 
JFK, so we know as the people get off the plane who is lawful 
and who we need to pull aside. Advances in that arena lead us 
to believe that, increasingly, our inspectors will be focusing 
their efforts and their expertise on problems, on criminals and 
other kinds of threats at our ports of entry, and they will be 
able to facilitate the legal flows through a variety of other 
means.
    So we do think that although inspectors will always carry 
out both enforcement and service functions, they need to be 
handled from a management and occupational standpoint as part 
of an enforcement chain of command.
    Senator Kyl. Mr. Chairman, that is my predilection on this 
issue, as well. It is difficult, because you have both service 
and enforcement responsibilities. One of the things that all 
three of us, I know, have focused on is the desire to make it 
easier for proper access to the United States through ports of 
entry, to reduce the long delays that are occasioned at the 
ports of entry. We need to work with Customs in this regard, as 
well. But it seems to me that, for the reasons that the 
Commissioner pointed out, we might want to at least look at 
that section of the legislation with her comments in mind.
    Thank you for your testimony, Commissioner Meissner. Thank 
you, Mr. Chairman.
    Senator Abraham. Thanks, Senator Kyl.
    In that we have had both the chance yesterday to talk at 
some length and because your statement was very comprehensive, 
I am going to have only a limited number of things to add, 
really, to our previous discussions.
    One of the things I did want to talk about, though, is on 
the delays issue. My experience in the last couple of years has 
been that for everybody who is in a line delayed somewhere are 
ten friends and relatives who somehow have our phone number. 
They have your phone number, too, I suspect. It is probably, 
more than almost anything, what we in Congress certainly get 
feedback about.
    Lately, there has been an increased level of concern 
focused on reports both in my State as well as elsewhere in the 
country that in some service centers, delays for green card 
processing are backing up dramatically, sometimes in excess of 
a year and a half, which seems like an extremely long period of 
time. I am wondering if we have the same sort of physics factor 
involved here that Senator Kyl referred to and that you have 
referred to. And that we have moved in the direction of 
naturalization, and achieved perhaps some reductions in the 
lines for that, in some service areas. Is that what is going on 
here and prompting increases in waits in other types of areas?
    Ms. Meissner. The issue with green cards is not actually a 
question of producing the green card. We actually have a 
wonderful technology that is working very well for the actual 
production of the cards, but it is the adjustment of status 
application that leads to the eligibility for the green card, 
and the backlogs there have risen well beyond what we believe 
is acceptable.
    It is the case that in focusing on naturalization in the 
way that we have over the last year, we have focused more 
resources on the naturalization caseload than we had previously 
and that has brought about some serious reductions in service 
in other areas. It was a judgment that I felt needed to be made 
and there was strong support in the Congress and elsewhere for 
making that judgment, because even with the caseloads in other 
application categories, the naturalization caseload was so 
very, very large that it required that level of effort.
    However, there is light in the tunnel. We are on track to 
meeting and probably exceeding our naturalization production 
goals this year. We have, as I said, cut the time in half. We 
are well on our way to being able to get it back to the 6 
months in another year and we will, therefore, next year, 
although we will still be working very heavily on 
naturalization, we will this coming fiscal year be able to 
apply some additional resources to adjustment of status and to 
some of these other case categories and begin to tame them, as 
well.
    Senator Abraham. I hope we can, and the purpose of today's 
hearing is not to set the priority list in such a fashion that 
we want to argue which line should be the shortest. I think all 
of us clearly feel that somebody who is entitled to citizenship 
ought to have the chance to be sworn in as soon as possible.
    At the same time, I think it reflects the problem that you 
confront, and I guess I want to just make a point. In trying to 
set some kinds of parameters in legislation for reasonable 
lengths of delay, perhaps we are reflecting, or at least we 
have tried to reflect, what we are hearing, or at least what 
this Senator is hearing and others who were involved in the 
preparation of the legislation, from home, as well as in this 
position I have from other parts of the country to some extent, 
too.
    The point is this. I think we, certainly as we move 
forward, will determine or debate back and forth as we talked 
yesterday whether or not some of these kinds of deadlines are 
appropriate for legislation, but I hope we can move, and not 
just under your leadership but I would hope in the future, as 
well, after 2000 and after 2004 and so on, that we would have a 
relationship with this agency, whatever it is called and 
whatever its structure, that if the issue is trying to come up 
with a service-friendly approach, that we debate what are the 
resource requirements to get the job done.
    I think Congress has the responsibility on the one hand to 
try to set in motion a process that gets done in a reasonably 
brief period of time, and if the agency, whatever it is called, 
says, look, this is only feasible if there are either fee 
increases or if there is another form of appropriated support, 
we need to know that, too, and we need to work together.
    We are trying here to tell people through this legislation 
that the signal needs to be stronger that we are going to deal 
with it. For instance, it is my understanding that in terms of 
employment-based immigration petitions, that there are wide 
variances between various service centers, that in the Vermont 
and the Texas areas, those centers, the timeframe is in the 
range of 2 months. But we are hearing in my State that the 
Nebraska center is somewhere in the vicinity of 10 months. I do 
not know, again, what accounts for those differences. I would 
be happy to hear anything you might want to add on that.
    But that is another part of it, that goes to the variances 
between the areas, and the reason that we felt and feel some 
need to put some kind of common standard out there so that 
somebody who has got a 10-month track record and thinks that is 
good enough maybe realizes it is not if there is legislation 
that specifies that is not good enough.
    Could you comment on those distinctions, because we are 
curious in our area because we are hearing a lot of concerns.
    Ms. Meissner. I think those are very fair points. I think 
that the most important thing that this legislation can do to 
address those points is to provide the machinery for a stable 
funding base for the immigration services organization. The 
funding base has to be protected, and this idea of firewalls 
and the idea of fees along with some capability for 
appropriated funding so that capital improvements in the 
ability of the infrastructure of the agency to be able to do 
this work in the most efficient way is very, very important.
    Beyond that, things like the service centers where there 
may be a 2-month or a 10-month delay, that is unacceptable. 
That should not be the case. There should be a similar or same 
level of service whether you live in Peoria or whether you live 
in Miami.
    So the customer service standards are the kinds of things 
that should regulate that. There obviously has to be the 
funding, but the management of it is important, too, and that 
is why we have asked for these service centers and our national 
resources to all be organized under one manager as part of that 
immigration services organization rather than reporting 
differentially, because those are our factories. Those are our 
main production resources and that work needs to be calibrated 
and made consistent and resources moved around among them, if 
need be. You are always going to have some anomalies for maybe 
a month or two if there is a spurt of applications, but there 
does need to be that overall management that calls for 
consistency.
    The other thing that I do not know--I cannot recall whether 
it is in your legislation or not, but the other thing that 
would be very important in services with fees coming in is that 
there be some reprogramming authority, some percentage of 
reprogramming authority that the agency could do itself when 
additional fees come in without requiring Congressional 
approval at every point. That is to say, I mean, for instance, 
we just have a new requirement, temporary protective status, 
that was decided after Hurricane Mitch. We have fees that we 
have received to do those applications, but that increased 
funding level that we have has not yet been approved 
Congressionally and so we cannot spend those funds.
    So a little bit of flexibility where expenditure is 
concerned--5 percent, 10 percent has been recommended by the 
National Association for Public Administration, for instance, 
the National Academy--something like that in the legislation 
would be very helpful.
    Senator Abraham. Commissioner, thank you for that 
suggestion, those comments, and for your participation. I want 
to just, as I said at the outset, thank you for trying to 
participate with us in a constructive way. There is obviously a 
lot of work that needs to be done before legislation passes. I 
am actually quite pleased that what I began talking about a 
couple of years ago now seems to be, in one form or another, 
maybe not in identical form, to be a subject on which there is 
a sense of consensus developing, that the need to separate 
functions is an important component in making things better.
    We will look forward to working with you and maybe other 
members. I will leave the record open, if other members have 
questions they might want to submit in writing. But we do look 
forward to working with you and your team as we move forward 
with the legislative efforts on this side of the Capitol and 
thank you very much for being with us today. We appreciate it.
    Ms. Meissner. Thank you. We very much appreciate the 
chance. Good bye.
    Senator Abraham. Thank you.
    [The prepared statement of Ms. Meissner follows:]

                  Prepared Statement of Doris Meissner

                              introduction
    Thank you Mr. Chairman, Senator Kennedy and Members of the 
Subcommittee. I am pleased to be here today to discuss the critical 
issue of how best to reform our current immigration structure to 
address current and future immigration challenges facing the nation.
    In April 1998, this Administration sent you a framework for change 
through restructuring, last summer we sent you legislation to endorse 
that change, and this July, we gave you a detailed restructuring 
proposal for how that change could work.
    I want to fundamentally change this agency, and I want your 
approval to move forward as soon as possible with the kind of change 
that will lead to improved performance.
    Some have asked me why I care about this issue and am working so 
hard on it, since, realistically, restructuring would not become 
effective until the next Administration arrives. Members of the 
Subcommittee, you are likely to still be here in 2001--I will not. My 
only stake in the restructuring debate--based on more than 20 years' 
experience in the immigration arena--is to try to achieve an 
immigration system that is best positioned both to enforce our 
immigration laws effectively and to continue our tradition of welcoming 
immigrants in the years ahead.
    Today's global society is challenging this nation's immigration 
system as never before--from unforeseen world events such as Hurricane 
Mitch in Central America to increasingly sophisticated human smuggling 
operations to dramatic changes in our immigration laws. And we can 
expect more complex challenges ahead.
    We have met these new challenges and goals head on and have 
achieved success in many areas. Let me mention just a few.
    INS has had the greatest success in enforcement, particularly at 
the border, where we have used new resources to address longstanding 
enforcement challenges.
    A prime example is our Southwest border enforcement strategy where 
we have achieved more in the past five years than has been done in 
decades. Five years ago, we developed a comprehensive multi-year 
Southwest border strategy with a clearly defined goal of deterring 
illegal migration, drug trafficking and alien smuggling, while 
facilitating legal migration and commerce.
    To help us meet our goal, Congress provided funding for 
unparalleled growth in personnel and resources. We have doubled the 
number of Border Patrol agents, which stands at more than 8,000 today, 
and have supported them with state-of-the-art force-multiplying 
equipment and technology. And we have seen results.
    Today, we have achieved considerable success in restoring integrity 
and safety to much of the Southwest border, thereby improving the 
quality of life in border communities. Operation Rio Grande is just one 
recent example of how successful deterrence works. After a concentrated 
effort to gain control of the border in South Texas and New Mexico was 
initiated in August 1997, apprehensions in Brownsville declined by 35 
percent in fiscal year 1998. This mirrors the decline in criminal 
activities that have accompanied INS border operations in other areas 
such as in Nogales and Laredo, and in San Diego, where the success of 
Operation Gatekeeper resulted in an 18-year low in apprehensions in 
fiscal year 1998. And, as the Southwest border strategy takes hold in 
high traffic areas and leads to increased border activity in new 
locations, such as the areas of Arizona recently affected, we will 
respond with the same comprehensive enforcement operations to achieve 
similar success.
    To complement the work along the border between the ports of entry, 
we have worked closely with other federal agencies to enhance our 
enforcement efforts at the ports while at the same time facilitating 
legal migration and commerce. Our target has been to achieve a less 
than 20 minute wait in our port of entry traffic lanes at least 80 
percent of the time. From October 1998 to May 1999, we met this goal 96 
percent of the time and we continue to build on this success at all 
ports of entry.
    Complementing this enhanced border management is an effective 
approach to combating illegal immigration in the nation's interior. We 
have now developed and begun to implement a new interior enforcement 
strategy focused on the investigation of human smuggling, human rights 
abuses, and other criminal violations. Last November, we announced the 
dismantling of the largest, most complex smuggling ring ever 
encountered by federal authorities. It smuggled more than 10,000 people 
into the United States, with organizers grossing nearly $200 million.
    We have also been successful at keeping pace with record numbers of 
criminal and illegal aliens coming through the system. For the fifth 
consecutive year, INS removed a record number of criminal and other 
aliens in fiscal year (fiscal year) 1998, reflecting the agency's 
continuing commitment to ensuring that illegal immigrants are not only 
caught, but also removed from the country.
    From fiscal year 1993 to fiscal year 1998, criminal alien removals 
increased by 98 percent, from 27,825 to 55,211. Such record removals 
and increased resources have helped INS deal with the fastest growing 
detention population within the Department of Justice. In fiscal year 
1998, alone, INS expanded its detention capacity by 33 percent, or 
4,000 beds for an end of year total of 16,000 beds, which supported the 
detention of more than 160,000 individuals who spent some time in INS 
custody.
    Success has not been limited to our enforcement function. We are 
also beginning to see improvement in the provision of immigrant 
services as a result of recent funding and our reengineering efforts.
    Our top priority in the provision of these services has been 
revitalizing the nation's citizenship program in its entirety. In 
fiscal year 1998, we opened more than 120 new fingerprinting sites in 
immigrant communities across the country, implemented additional 
quality assurance procedures to ensure integrity which repeated outside 
audits have validated, and expanded access of our customers to 
information that they need.
    During this comprehensive effort to overhaul the entire 
naturalization process, we have maintained as our number one focus the 
reduction of the backlog of pending naturalization applications. With 
the new staff that we have brought aboard and the continued 
improvements in our conversion to automated processes, we have moved 
ahead in meeting the very ambitious goals that we have set in 
naturalization for this year. During fiscal year 1999 through July, INS 
completed more than 942,910 naturalization applications, a 102 percent 
increase over the same period in fiscal year 1998. We have also reduced 
the time required to process a naturalization application from 28 
months at the beginning of fiscal year 1999 to an expected 12 months by 
the end of September.
    Indeed, from 1993-1998, 5.6 million immigrants--more than the total 
in the previous 30 years combined--applied for citizenship. We have 
been able to congratulate 3.3 million of them as new United States 
citizens.
    The significant progress that we have made on these and other 
longstanding problems demonstrate that we can achieve results given the 
proper resources and a truly coordinated approach.
    However, I am all too aware of the problems that we have at INS. 
Consistent, courteous and timely customer service is not uniformly 
provided. Mission conflict at the local operational level often impedes 
accountability, and the current bureaucratic chain of command hampers 
efficiency.
    I assure you that I am and have been working to solve these and 
other problems, but I cannot fully succeed without the necessary 
structural changes that will result in a true and meaningful 
transformation--from a strained structure designed to deal with the 
smaller and more manageable workload of yesterday to a modem system 
equipped to meet the challenges of today and tomorrow.
    Restructuring alone will not solve all of our problems but it will 
better position us to solve many by providing the core framework for 
administering the nation's--immigration policy in the most effective 
manner possible. Restructuring will provide us with the tools necessary 
to achieve comprehensive change across the board, from our operational 
structure to the culture of our organization. It is the next step in 
our ongoing institutional reform.
    I am committed to fundamental change that will bring about true, 
meaningful reform as quickly as possible, and I want to work with 
Congress to achieve these reforms.
    The INS must change and will change. Therefore, the question before 
us is how to change the current immigration system to ensure that this 
change will improve the immigration system so as to meet tomorrow's 
challenges and not undermine the significant progress we have made.
    And the time could not be better. We have a new workforce eager and 
ready to embrace the structural change that will allow them to perform 
more effectively and foster the new culture of customer-oriented 
professional service.
    Fortunately, I believe we share most core restructuring principles 
and structural solutions. This is critical, for we must work together 
to lay the foundation of the immigration system that will last far 
beyond this Administration and this Congress into the next century.
    I know that we cannot succeed without your help and support and I 
look forward to reaching a final plan together.
    Before discussing the Administration's proposal, let me briefly 
share with you the extensive research and work we have done to bring us 
to where we are today.
                         administration process
    As you may know, two years ago, Congress asked the Attorney General 
and I to report back on the 1997 proposal that the Commission on 
Immigration Reform (CIR) prepared calling for structured changes in the 
nation's immigration system. The Administration's review of the CIR 
recommendations led to a proposal for a new framework for improving INS 
which I shared with you last spring.
    As you may recall, the Administration's Framework for Change set 
forth a high level structure that fundamentally changes our immigration 
system to the core. It preserves one coherent immigration system while 
building a strengthened law enforcement operation and a new service-
oriented organization by splitting enforcement and services functions 
into two distinct chains of command.
    Since April 1998, INS has worked on providing the detail that 
illustrates how the INS' organizational structure would look and 
operate beneath the framework. In September 1998, INS formed a 
restructuring team in the Commissioner's Office, and hired a nationally 
renowned consulting firm, PricewaterhouseCoopers (PwC), to provide 
design support and best practices from other public and private 
organizations.
    The Restructuring team's internal planning has been extensive and 
has drawn upon input from both field and headquarters staff.
    Through a PwC stakeholder advisory board as well as through 
specific briefings, the Restructuring team also engaged in extensive 
consultations with INS external stakeholders, ranging from community-
based organizations to trade and international business organizations 
to other government and law enforcement agencies. Regular meetings with 
staff from the Department of Justice, the Office of Management and 
Budget (OMB), the White House, and Congress have been ongoing to gain 
input and ideas.
    To apply successful lessons from structures of relevant 
organizations for benchmarking purposes, the team extensively 
researched other federal law enforcement and service providing 
agencies, including selected state agencies and private corporations.
    INS senior management and Administration reviews of this work have 
led to the detailed proposal, which I would now like to discuss with 
you.
                        administration proposal
    Let me begin by saying that the Administration's proposal and the 
legislation you recently introduced Senator Abraham, S. 1563, seek to 
address the same longstanding problems and share very similar 
structural solutions.
    Both the Administration's proposal and S. 1563 represent bold, far-
reaching, non-status quo reform geared toward providing better customer 
service and improved law enforcement.
    Both call for a clear split between enforcement and services to 
provide better results, improve accountability, and strengthen 
management of each function. And both advocate putting these two, 
distinct functions into separate chains of command, keeping them within 
the Department of Justice.
    Most importantly, both provide for an integrated structure to 
coordinate these interrelated missions. The integration of these 
missions lies at the heart of any restructuring and we strongly support 
a national coordinating structure.
    While we share many structural solutions, we must also be wary of 
going too far with detail in legislation so that we preserve the 
flexibility of the immigration system to meet the unforeseen challenges 
ahead.
    The Administration's proposal achieves each of the four primary 
goals that we identified at the beginning of our effort.
    First, the proposal strengthens accountability by providing clear, 
separate chains of command for immigration services and enforcement 
from the top of the agency to each local manager so that these managers 
can be held accountable for performance and results in their area of 
expertise.
    Second, the proposal helps achieve a culture change in customer 
service by providing for structural features such as remote servicing 
offices and for full-time positions devoted solely to ensuring 
consistent, courteous, accurate and timely service.
    Third, the proposal builds a seamless enforcement structure that 
supports all enforcement activities at and between ports of entry and 
in the nation's interior.
    Finally, and most importantly, the proposal ensures a coherent 
immigration system for the nation that enforces the laws at the border 
and in the interior as well as serves the immigrant community.
    The Administration's proposed new immigration structure represents 
fundamental reform. In the current organization, managers and employees 
are frequently required to reconcile conflicting priorities at the 
expense of one or the other of the agency's immigration services and 
law enforcement missions. This proposal calls for radically 
transforming the current structure by creating two new mission-centered 
organizations--one for immigration services and one for law 
enforcement--each with a distinct chain-of-command but within one 
coherent immigration system.
    The three INS regional and thirty-three district offices that have 
increasingly struggled with dual mission responsibilities would be 
eliminated and replaced with area and local offices organized in 
networks focused around either immigration service delivery or law 
enforcement.
                          immigration services
    The proposed structure for Immigration Services (IS) builds upon 
the work that INS has already begun in its comprehensive overhaul of 
its benefit-granting mission in providing new customer service as 
reflected in the streamlined Immigration Services Division and the 
National Customer Service Center. The new structure is designed to 
achieve a culture change that will make Immigration Services a model of 
customer service.
    Specifically, the new structure would establish a senior executive 
manager for Immigration Services who would be the head of the new 
Immigration Services chain of command and skilled in service delivery. 
Working with an integrated program staff organized according to 
specific services--family, business and trade, resident and status, and 
citizenship--this executive would be responsible for INS' immigration 
services mission and would be held solely accountable for results.
    Much like the Ombudsman position proposed in S. 1563, the proposal 
establishes a senior level Customer Service Advocate who reports 
directly to the head of Immigration Services to promote customer 
service throughout the agency. The Advocate would have the 
responsibility of ensuring that customers are treated fairly and 
courteously in a timely manner in local offices throughout the country. 
We would reinforce this newly institutionalized culture of customer 
service by having a national point for customer service training, the 
conducting of annual customer satisfaction surveys, and problem 
resolution.
    The proposal eliminates a layer of management and creates 
geographic operational areas headed by directors who would report 
directly to the head of Immigration Services. We have ensured that the 
new areas are based on such factors as the location of immigrant 
communities to better reach and serve our customers. In addition, each 
of the new geographic areas contains one of the metropolitan areas that 
are among those with the largest volume of applications so as to better 
manage the workload for more timely and accurate processing. These Area 
directors would oversee all local immigration services offices within 
their area and ensure quality, timely management of adjudications 
workloads as well as consistent decision-making. With clear single 
mission demands, the Area directors can be held directly accountable 
for achieving timely performance and customer service standards within 
their areas. We believe that this is a more sound approach and will 
achieve the results we all seek rather than specifically setting out in 
legislation deadlines for processing.
    To maximize direct service for our customers, the proposal would 
build upon existing offices that locate the most customer focused 
activities--fingerprinting, information, problem resolution, testing, 
adjudication services--directly in the communities to eventually 
establish additional local immigration offices that would report, 
through Area directors, to the head of Immigration Services.
    In addition, the proposal would build upon the gains we have made 
in using economies of scale to improve service such as in the provision 
of remote services to our customers. The proposal would consolidate all 
remote operations--telephone, service, and card centers--under one 
director that would report to the Immigration Services executive. This 
director would be held accountable for these operations critical to a 
modem customer service organization.
    Finally, we recognize the importance of adequate funding for 
services. We want to work with the Committee to ensure that fees are 
applied to processing applications which generated the fees, and to 
create a source of support for major immigration services projects and 
investments so as to lessen the need to rely on fee revenue exclusively 
for major expenditures.
                              enforcement
    To effectively enforce the nation's immigration laws, the new 
structure integrates all existing enforcement functions under one new 
chain of command. This chain is divided into geographic enforcement 
areas across the country based on workload and enforcement priorities 
such as anti-smuggling routes, and headed by law enforcement 
professionals responsible for monitoring performance and ensuring 
compliance with standard agency-wide policies and procedures. The 
proposal removes a layer of middle management so that the area heads 
report directly to the head of enforcement. This direct chain of 
command and full integration will allow enforcement area directors to 
allocate resources in response to rapid changes in criminal and illegal 
activities.
    This full integration under one enforcement head will help address 
many difficulties we presently encounter in our enforcement efforts and 
will facilitate seamless law enforcement from the nation's borders to 
its interior. With one person in charge of enforcement, the structure 
will enhance coordination with other law enforcement agencies on 
comprehensive border control strategies and strengthen the ability to 
pursue illegal activities that cross geographic boundaries. And, with 
the enhanced coordination between and among ports, and with other INS 
enforcement entities, the ability to identify and break large-scale 
criminal enterprises will increase.
    As our border enforcement efforts become even more successful and 
the smuggling of illegal aliens become more sophisticated, we cannot 
overlook the importance of immigration inspectors in our enforcement 
efforts. One of the places where we differ with S. 1563 is with the 
placement of the inspections function. The Administration believes that 
inspectors are an integral part of INS enforcement mission, and while 
acknowledging the multi-faceted role they serve, we believe there are 
compelling reasons for keeping inspectors in the enforcement chain of 
command.
    Immigration inspectors, by virtue of their training, duties and 
responsibilities, and the hazards to which they are exposed, are much 
more closely aligned with law enforcement officers than with other 
types of Government inspectors. While inspectors perform crucial 
adjudicative functions as well, the primary reason for placing 
inspectors at ports of entry is to serve both as a deterrent and to 
enforce U.S. immigration laws which have increasingly involved criminal 
sanctions. In carrying out these apprehensions and detentions, 
inspectors use authorities given them by Congress which are 
characteristic of law enforcement officers.
    Inspectors facilitate the entry of over 500 million people to the 
United States every year. In fiscal year 1997 alone, inspectors 
apprehended more than 184,000 criminal aliens and originated 24,445 
criminal prosecution cases. Additionally, they detained approximately 
500,000 applicants who subsequently were not admitted to the United 
States.
    And these inspectors are increasingly at risk in performing this 
law enforcement function. As a result of our border enforcement 
successes in between the ports-of-entry, we are witnessing increasing 
activity and sophistication of criminal organizations that profit by 
smuggling people, drugs, and other contraband through vehicular 
inspections lanes at the ports-of-entry, commercial airports, private 
aircraft landing fields, and ship dockyards. The competition to funnel 
illegal aliens, drugs and contraband through these traditional entry 
points has resulted in increased violence as well. As part of their 
daily routine, inspectors must subdue belligerent applicants, persons 
resisting arrest, and persons attempting to flee when they realize they 
have become suspects during an interrogation at a port-of-entry.
    When an inspector is charged with enforcing our nation's 
immigration laws, it does not mean that that individual loses the 
ability to treat others with respect nor loses the ability to apply 
immigration law fairly based on their extensive training. We ask for 
the same type of balance in charging police officers on the street with 
enforcing the laws while at the same time exercising appropriate 
discretion in carrying out their duties and serving the community with 
the proper respect, courtesy, and professionalism. While different in 
their duties, both are charged with more than just an expanded 
enforcement mission.
    In short, while inspectors have various roles--whether welcoming 
visitors to the U.S., facilitating commerce through timely processing, 
or adjudicating immigrant claims--these all complement the fundamental 
enforcement role they serve.
    Recognizing the exponential increase in the demand for detention 
space, the Administration's proposal would centralize the detention 
program at the national level to provide for better management of 
limited detention bed space. The proposal also recognizes our increased 
dependence upon the use of contracted beds to meet our detention 
responsibilities. As a result, the proposal provides for a national 
structure that ensures that uniform standards are followed, consistent 
practices are utilized, and INS and contracted facilities are monitored 
to ensure that every INS detainee is afforded the same protections and 
rights guaranteed by law.
    Of special concern are those individuals who are detained while 
seeking asylum. Clearly, it is not in our interest to detain asylum 
seekers whose eligibility for asylum can be clearly established in the 
course of a credible fear interview. The Administration proposal will 
build on current INS efforts to address the unique situation of such 
asylum seekers. Structurally, the Administration proposal would 
maintain the current domestic asylum offices and consolidate the 
asylum, refugee, and humanitarian affairs programs in immigration 
services. Detention would be treated as a separate entity in the 
enforcement chain.
    The proposal also creates Community Advisory Panels at the national 
and area levels to provide community input regarding enforcement 
operations, to institutionalize a forum for public involvement, and to 
foster better community relationships and cooperation. This will ensure 
that senior management directly hear from the community as they make 
operational decisions, and will better educate our personnel in the 
field of the concerns unique to a particular community as they carry 
out an enforcement mission.
    In short, the proposed integrated enforcement structure is designed 
to meet the needs of a modern, professional law enforcement agency that 
can manage the complexities of immigration law and crimes that often 
extend far beyond our boundaries while upholding the civil rights of 
all individuals.
                           support structure
    Separate and apart from the coordinating structure at the top, the 
Administration's proposal, like S. 1563, provides for a unified support 
operations structure that would handle support needs such as a records 
and national file center, training and human resource functions, 
automation, data support and technology, and administrative support.
    The importance of a unified, responsive support operations 
structure cannot be overstated.
    Just taking into account the millions of records alone that we 
handle, we do not believe our daily business can be done without a 
support structure dedicated solely to meeting the needs of both 
enforcement and services chains of command. Currently, we maintain more 
than 25 million immigrant files. Each contains the documentation 
required to ascertain an individual's immigration history with the 
United States, including both enforcement and benefit matters. These 
files must be complete and must be readily available whether to an 
adjudicator in Immigration Services or an investigator in Enforcement 
Operations.
    The Service's chronic problems surrounding ``lost'' files are 
finally being addressed with the opening of an automated, centralized 
National File Center in November. A new structure needs to strengthen 
these long overdue improvements and I believe our proposal does just 
that.
                              coordination
    Most significantly, both the Administration's proposal and S. 1563 
recognize the need for an overall integrating structure managed by one 
full-time, senior appointed official who will be the policy voice for 
immigration and directly responsible and accountable for both 
immigration services and enforcement operations. This would allow the 
government to maintain the crucial balance between the inextricably 
linked immigration enforcement and immigration services that is needed 
for a coherent national immigration policy and system and effective 
application of immigration law.
    For instance, the nation's immigration laws determine the legal 
status of all non-citizens in the United States. The laws outline how 
those who are here unlawfully can obtain legal status and how those 
here legally can lose that status. Because these processes are 
intertwined in statute and practice, assigning them to separate 
entities with no coordination would fragment and weaken the 
government's ability to fairly and effectively administer immigration 
laws.
    And, in this day of rapidly changing events that can play out 
before the world in real time, a single voice for United States 
immigration policy that can respond-quickly and decisively on 
immigration matters is critical.
    That is why we would establish a structure with one person 
reporting to the Attorney General and the Deputy Attorney General with 
a number of functions at the national level in such critical areas as 
legal representation, policy, financial management, professional 
responsibility and review, and Public Affairs and Congressional 
Relations, yet still provides for complete separation of enforcement 
and services from national offices down to the field offices. And, to 
ensure accountability and policy consistency, we believe this official 
should be the only Senate-confirmed appointee in the immigration 
system.
    The need for broad-level overarching coordination is also important 
in ensuring that what would be a relatively small Immigration Services 
organization receives the priority and resources necessary to do its 
job within the larger law enforcement missions of the Department of 
Justice. We believe that one chief financial officer will best help 
facilitate proper resource coordination.
    Separate and apart from high-level integration, operational 
coordination is also key and must be accounted for in separating the 
two missions into two chains of command. Let me use just one key 
example.
    And, as I alluded to earlier, as INS has increased its enforcement 
effectiveness in its border control, interior enforcement and criminal 
alien removals, there has been a corresponding increase in the number 
of individuals resorting to fraudulent means to enter and remain in the 
United States. Stopping benefit fraud requires close coordination 
between enforcement and services.
    On a daily basis, INS adjudicators in service centers and local 
offices review thousands of applications and other supporting 
documents. In the course of their adjudication work, they often detect 
suspected fraudulent documents and suspect applications. The service 
centers and local offices refer suspect applications and petitions to 
the appropriate district office for analysis and consideration for 
investigation. Immigration Services employees also develop general 
intelligence information about patterns of fraud and possible groups or 
individuals involved.
    INS Special-Agents working with the service center or local office 
review the information referred by immigration services employees. Once 
an investigation is initiated, special agents complete all necessary 
fieldwork on the case through prosecution if necessary, and report the 
results to the appropriate immigration services office for completion 
of the adjudication action. Special agents and intelligence analysts 
also compile intelligence information from various service centers and 
local offices into plans containing strategies and tactics to maximize 
future investigations of benefit fraud.
    Benefit fraud investigations and resulting fraud reduction efforts 
would suffer from constant challenges and competing priorities if the 
two interrelated missions were completely split.
    In short, the Administration proposal carefully balances the need 
to eliminate potential mission conflict at the day-to-day operational 
level while recognizing that the missions are complementary and both 
must be considered where immigration policy and the national interest 
are involved. I urge the Subcommittee to ensure that final 
restructuring legislation includes this vital integrating structure.
                               conclusion
    We live in an era of large-scale immigration and increasing 
international migration pressures. We need greater, not less, cohesion 
and stronger consolidation and interaction among functions, in order to 
serve the broad public policy needs of our time.
    How to organize immigration governance has been debated for more 
than 100 years as a response to problems in the immigration bureaucracy 
that transcend particular administrations or historical periods. This 
Administration's proposal represents fundamental reform that will 
strengthen the immigration system. We should not let the frustration we 
share lead us to weaken our institutions and our ability to carry out 
responsibilities in both enforcement and benefit-granting that are 
mutually reinforcing, not fundamentally incompatible.
    Mr. Chairman, I look forward to working with you and other members 
of Congress in moving forward to restructure INS to bring much needed 
reform to our immigration system in a manner that best serves the 
nation. Thank you.

    Senator Abraham. We will now invite our second panel to 
come forward to join us. Our second panel will consist of Chief 
Paul Berg, who is the chief of the Chief Patrol Agents 
Association and chief of the Del Rio Sector of the U.S. Border 
Patrol; Mr. Warren Leiden, who is a partner with the law firm 
of Berry, Appleman and Leiden, who will be testifying on behalf 
of the American Immigration Lawyers Association; Mrs. Rachel 
Yoskowitz, Director of Immigration and Citizenship Services 
with Jewish Family Service of Detroit, MI; and we will also 
hear from T.J. Bonner, who is president of the National Border 
Control Council; and finally, from Mr. Richard Gallo, who is 
the national president of the Federal Law Enforcement Officers 
Association.
    We welcome all of you. We have, obviously, a fairly busy 
panel or large panel here today, so I am going to have the 
clock more rigidly enforced on this go-around. For those of you 
unfamiliar with it, it is basically a 5-minute clock which 
alerts the witnesses at the 4-minute point with the orange 
light and at the 5-minute point with the red light. We are 
usually pretty flexible about letting folks finish thoughts 
that are in progress at that point, but we will, of course, 
include everybody's complete statement for the record if it 
would be longer than that.
    Thank you all for being here. We will start with you, Mr. 
Berg. Thank you for being here.

 PANEL CONSISTING OF PAUL M. BERG, CHIEF, DEL RIO SECTOR, U.S. 
BORDER PATROL, AND CHIEF, CHIEF PATROL AGENTS ASSOCIATION, DEL 
  RIO, TX; WARREN R. LEIDEN, BERRY, APPLEMAN AND LEIDEN, SAN 
 FRANCISCO, CA, ON BEHALF OF THE AMERICAN IMMIGRATION LAWYERS 
  ASSOCIATION; RACHEL S. YOSKOWITZ, DIRECTOR, IMMIGRATION AND 
  CITIZENSHIP SERVICES, JEWISH FAMILY SERVICE METRO DETROIT, 
  DETROIT, MI; T.J. BONNER, PRESIDENT, NATIONAL BORDER PATROL 
 COUNCIL, CAMPO, CA; AND RICHARD J. GALLO, NATIONAL PRESIDENT, 
  FEDERAL LAW ENFORCEMENT OFFICERS ASSOCIATION, NORTHPORT, NY

                   STATEMENT OF PAUL M. BERG

    Mr. Berg. Thank you, Mr. Chairman. Chairman Abraham, 
Senator Kennedy, and members of the subcommittee, I am pleased 
to have the opportunity to talk to you today about the impact 
of the proposed INS Reform and Border Security Act of 1999.
    The Chief Patrol Agents Association, which consists of over 
190 top field managers, firmly believes that both immigration 
enforcement and immigration services are critically important 
to our Nation's sovereignty and those to whom we provide 
service.
    The problems with the existing system have been caused by 
the complexity and diversity of the two competing missions of 
the Immigration and Naturalization Service. On one hand, you 
have an agency responsible for adjudicating the various 
immigration benefits, applications for those seeking to legally 
immigrate to the United States, and most importantly, the 
vesting of U.S. citizenship to those eligible and deserving of 
such. Divergently, enforcement elements deal with people who 
try to circumvent the legal immigration system or violate their 
status after admission.
    The largest of these enforcement elements is the U.S. 
Border Patrol, which is tasked with protecting our borders. 
Last fiscal year, the Border Patrol apprehended 1.5 million 
illegal entrants and seized nearly $1.9 billion worth of 
narcotics. Those figures will probably be equaled this fiscal 
year.
    The other enforcement element, consisting of intelligence, 
investigations, and detention/deportation, are essential to 
immediate border control, as well as an effective interior 
enforcement strategy. There is also a vital immigration 
inspection force that ensures those entering the United States 
through the ports of entry have the proper documentation and 
have the legal authority to be here. The management of such 
diverse activities by one person leads to an adverse 
competition for resources.
    Historically, budget allocations for the enforcement 
element serve as a funding mechanism for the support services 
and benefits programs. When there are shortages in those areas, 
funds for enforcement, equipment, and enhancements, including 
personnel, often are redirected.
    Congress fully intended to improve the efficiency of the 
INS, as evidenced by the record budgets over the past 5 fiscal 
years. Yet, the agency has fallen short in accomplishing the 
objectives mandated by Congress. Shortages of personnel and 
technology continue to exist.
    As you can see from my prepared statement, the priorities 
of a law enforcement agency are drastically different from a 
benefits-providing agency. What we presently have is similar to 
expecting one manager to oversee the operations of the Federal 
Bureau of Investigation and the Social Security system at the 
same time.
    The chain of command for the enforcement side of INS is 
extremely dysfunctional. As chief patrol agent for the Del Rio 
Sector, my immediate operational supervisor is not within the 
Border Patrol but is the central regional director. The chief 
of the Border Patrol at INS headquarters is not even in the 
chain of command.
    In reviewing all the enforcement divisions within the 
Department of Justice, we are the only agency organized in this 
nonfunctional management structure. For optimum efficiency, the 
functions and management of the enforcement elements must be 
structured similar to a large metropolitan police department.
    The proposed legislation will allow the directors of the 
two bureaus to concentrate their efforts on making a system 
that is efficient, to remain focused on very complex missions, 
and they will be independently accountable. At the same time, 
the Associate Attorney General for Immigration Affairs can 
ensure coordination between the two immigration bureaus and 
directly oversee immigration inspections at the port of entry.
    We must stop illegal entry into the United States and 
remove those who have slipped through, remain, and work here 
illegally. We must eliminate the incentive for people who risk 
their lives at the hands of unscrupulous smugglers. The new 
enforcement agency should be managed by career enforcement 
officers with the expertise to enforce immigration law, much 
like the FBI structure. A well-managed border will enhance our 
national security and safeguard our immigration heritage, while 
restoring our Nation's confidence in the integrity of its 
sovereign border.
    This cohesive strategy is essential to eliminate the 
negative impact of unimpeded illegal immigration on communities 
not only in Texas, New Mexico, Arizona, and California, but in 
places such as Detroit, Boston, and other East Coast 
destinations that draw illegal entrants not only from the 
Southern border but from the Northern border, as well.
    The Chief Patrol Agents Association believes the INS Reform 
and Border Security Act of 1999, properly implemented, will 
create an immigration enforcement bureau capable of properly 
managing our borders and at the same time provide a coordinated 
interior enforcement strategy. We would like to thank Chairman 
Abraham and Senator Kennedy and Senator Hagel for introducing 
this very important legislation.
    Mr. Chairman, ranking member, and members of this 
subcommittee, speaking now on behalf of all officers of INS and 
especially for the agents of the U.S. Border Patrol, we are 
proud to be serving our country and take pride in carrying out 
the intent of the immigration laws passed by Congress. I thank 
you for allowing me the opportunity to appear before you today 
on behalf of the members of the Chief Patrol Agents Association 
and I would be happy to answer any questions that you might 
have.
    Senator Abraham. Chief Berg, thank you very much. We all 
appreciate your service. Again, we have a tendency here when we 
focus on problems to perhaps convey the impression that there 
is not a lot of respect and appreciation and admiration for the 
folks who are on the front lines here. That is not certainly 
our intention. I know Senator Kyl would like to comment on 
that, too, before he leaves.
    Senator Kyl. Mr. Chairman, I have a 3:30 appointment and I 
have got to leave, but Paul Berg is already making a big impact 
and we really appreciate all your help and the communication we 
have had with you. Keep up the great work, and I apologize to 
the rest of the panel. Thank you.
    Senator Abraham. Thanks, Senator Kyl.
    [The prepared statement of Mr. Berg follows:]

                   Prepared Statement of Paul M. Berg

    Chairman Abraham, Senator Kennedy, and Members of the Committee, I 
am pleased to have the opportunity to talk to you today about the 
impact of the proposed ``INS Reform and Border Security Act of 1999'' 
on immigration enforcement operations.
    The Chief Patrol Agents' Association, which consists of over 190 
top field managers, firmly believes that both immigration enforcement 
and immigration services are critically important to our nation's 
sovereignty and those to whom we provide service. Each area requires 
equal dedication and continuous management oversight.
    The problems with the existing system have been caused by the 
complexity and diversity of the two competing missions of the 
Immigration and Naturalization Service--providing services to legal 
immigrants and preventing the entry of individuals who attempt to enter 
the United States illegally.
    On one hand, you have an agency responsible for adjudicating the 
various immigration benefit applications for those seeking to legally 
immigrate to the United States. The immigration services functions 
primarily deal with the paperwork and meticulous details that are 
required to provide benefits within the immigration and nationality 
laws passed by Congress.
    The public is entitled to efficient and timely handling of 
applications and issuance of immigrant and non-immigrant visas, and 
most importantly the vesting of U.S. Citizenship to those eligible and 
deserving of such.
    Divergently, you have enforcement elements who deal with people who 
try to circumvent the legal immigration system or who violate their 
status after admission. The largest of these enforcement elements is 
the U.S. Border Patrol.
    The Border Patrol is the uniformed law enforcement element tasked 
with protecting the border of our nation 24-hours-a-day, 7-days a week, 
52-weeks a year. Last fiscal year, the Border Patrol apprehended 1.5 
million people attempting to enter the country illegally; and seized 
nearly 1.9 BILLION dollars of narcotics. Those figures will be equaled 
this fiscal year. (See attached apprehension statistics.)
    Supporting these enforcement elements are the offices of 
intelligence, investigations, and detention and deportation. All the 
aforementioned are essential to immediate border control as well as an 
effective interior enforcement strategy.
    We also have immigration inspectors at the ports of entry. The 
inspectors have the dual function of facilitating the free flow of 
commerce and persons through our land, sea and airport ports of entry, 
as well as detecting malafide applicants for admission and interdicting 
illegal contraband.
    As you can see the management of such diverse activities by one 
person leads to an adverse competition for resources. Historically, 
budget allocations for the enforcement elements served as a funding 
mechanism for the support services and benefits programs, when there 
are shortages in those areas. Funds for enforcement equipment and 
enhancements are redirected, when temporary increases in adjudicators 
are needed.
    Congress has initiated a commitment to improving the efficiency of 
the Immigration and Naturalization Service as is evidenced by the 
record budgets allocated to the agency over the past five fiscal years. 
Yet the Agency has fallen short in accomplishing the objectives 
mandated by Congress.
    Naturalization application backlogs, unacceptable inspection 
waiting times at ports of entry, poor investigation of fraudulent 
applications for benefits, overstay of non-immigrants, as well as 
shortages of personnel and technology continue to exist.
    As you are aware, the operation of a law enforcement agency is 
drastically different from the operation of a benefits providing 
agency. What we presently have is similar to expecting one manager to 
oversee the operations of the Federal Bureau of Investigation and the 
Social Security System at the same time. While smaller in size, the 
current INS requires the same diversity.
    Additionally, the current system provides for a very disjointed 
operation. The chain of command for the enforcement side of INS is 
extremely dysfunctional. As Chief Patrol Agent for the Del Rio Sector, 
my immediate operational supervisor is not the Regional Director for 
Border Patrol, but, is the Central Region Director. The Regional 
Director then reports to the Office of Field Operations at INS 
Headquarters on all operational matters. The Chief of the Border Patrol 
at INS Headquarters is not even in the chain of command.
    In reviewing all the enforcement divisions within the Department of 
Justice--FBI, DEA, Bureau of Prisons, U.S. Marshals Service and the 
INS--we are the only agency organized in this non-functional management 
structure.
    To have an effective immigration law enforcement element, there is 
a need for a very precise chain of command, with as few layers of 
management as possible, and, with trained law enforcement people in 
management functions.
    For optimum efficiency, the functions and management of the 
enforcement elements must be structured similar to a large metropolitan 
police department, with adjustments for the national scale of the 
immigration enforcement elements.
    The proposed legislation--the ``INS Reform and Border Security Act 
of 1999''--will provide the potential for effective management of the 
Immigration Services and Immigration Enforcement activities. At the 
same time it will place the immigration inspectors directly under the 
Associate General for Immigration Affairs, and independent of the 
immigration enforcement or services elements. This will place the 
inspectors on the same level at the other agency inspectors at the 
Ports of Entry.
    The creation of two bureaus will allow the directors and the 
Associate Attorney General to concentrate their efforts on making a 
system that is efficient, to remain focused on the very complex 
missions facing them, and they will be independently accountable.
    The latter is something I know this committee is very concerned 
with, and is important to our employers, the taxpayers. When tax-
dollars are allocated to hire 1,000 new employees, or to purchase 
technology enhancements, it is important that the purchases be made for 
these specific purposes, and the funds not be diverted to other 
activities based on one person's conflicting mission priorities.
    From the standpoint of the proposal for the Bureau of Enforcement 
and Border Affairs, we believe the creation of the bureau will provide 
a framework to properly enforce the immigration laws of this nation, at 
the same time creating a separate bureau to better serve those wishing 
to immigrate legally or seek benefits under immigration law.
    As I have said previously, we must not only stop illegal entry into 
the United States, but, we must remove those who have slipped through, 
remain and work here illegally. We must ensure employers stop hiring 
people who can not legally work in this country. We must remove the 
incentive for people to risk their lives at the hands of smugglers who 
are paid not only by those who are being smuggled, but also by 
employers in search of cheap labor. We must be able to detect, 
identify, and remove those who are threats to our society through 
modern technology and the human resources required to effect the 
removals.
    This will require an enforcement agency structured much like the 
FBI, with professional law enforcement officers in charge of each area 
who know how to enforce immigration laws, as you have suggested in the 
proposed legislation.
    The Bureau of Enforcement and Border Affairs must be an agency with 
the majority of its officers in the field where the enforcement takes 
place, and with a very limited amount of management overhead. It must 
take advantage of the latest technology to ensure the most efficient 
use of its resources.
    The proposed legislation would provide the framework for this 
country to more effectively manage its borders, while improving the 
services required to eligible persons. The Bill would bring the 
National Border Patrol Strategic Plan, developed in 1994, nearer to 
closure. The establishment of a Bureau of Enforcement would serve as 
the bridge required to integrate a successful border control policy 
with an effective interior enforcement strategy.
    This cohesive strategy is essential to eliminate the negative 
impact of unimpeded illegal immigration on communities not only in 
Texas, New Mexico, Arizona and California, but, in places such as 
Detroit, Boston and other east coast destinations, that draw illegal 
entrants not only from the Southern Border but from the Northern Border 
as well.
    A well-managed border will enhance our national security and 
safeguard our immigration heritage, while restoring our nation's 
confidence in the integrity of its sovereign border.
    The Chief Patrol Agent's Association believes the INS Reform and 
Border Security Act of 1999, properly implemented, will create an 
Immigration Enforcement Bureau capable of properly managing our 
borders. We thank Chairman Abraham, Ranking Member Senator Kennedy and 
Senator Hagel for introducing this very important legislation.
    As stated, this Bill provides the framework. A detailed 
implementation plan would be developed in a collaborative effort with 
those impacted by this plan, internal and external customers, 
community-based organizations, advocacy groups, other government and 
law enforcement agencies, the Department of Justice and with the 
members of Congress.
    Mr. Chairman, and Members of this subcommittee, speaking on behalf 
of all the employees and officers of the Immigration and Naturalization 
Service, and especially the Agents of the U.S. Border Patrol, we are 
proud to be serving our country and take pride in carrying out the 
intent of the immigration laws passed by Congress.
    I thank you for allowing me the opportunity to appear before you 
today on behalf of the members of the Chief Patrol Agents' Association. 
I now would be happy to answer any questions you might have.
[GRAPHIC] [TIFF OMITTED] T8415.001

[GRAPHIC] [TIFF OMITTED] T8415.002

    Senator Abraham. Mr. Leiden, welcome back. It is good to 
have you again before one of our hearings. We appreciate it and 
turn to you at this time.

                 STATEMENT OF WARREN R. LEIDEN

    Mr. Leiden. Thank you, Mr. Chairman, and thank you to the 
members of the committee for this opportunity to speak on 
behalf of the American Immigration Lawyers Association. Our 
nearly 6,000 members represent tens of thousands of U.S. 
families and American businesses petitioning for immigrants, as 
well as refugees and others seeking asylum. As you know, I was 
a member of the Commission on Immigration Reform and I feel 
like I have been studying the INS organization and 
reorganization issue for over a decade.
    Our association strongly supports S. 1563, the INS Reform 
and Border Security Act, because the Immigration Service is no 
longer succeeding at its dual mission of both enforcement and 
adjudications. In particular, I would like to focus on the 
adjudications function, which is suffering tremendously in the 
last 2 years and is imposing both personal hardship on families 
and economic hardship on businesses.
    As has been mentioned, in the immigrant petitions, we see 
adjudications taking longer than 10 months in both California 
and Michigan and those two regions. Naturalization petitions 
have almost come down to a year, but only very recently, and in 
some areas are taking well longer than a year. Adjustment 
applications are really not being adjudicated now. The few that 
are trickling out are 18 months or longer, but adjustment and 
other applications and requests for a service actions are 
essentially halted right now and there is no real planned time 
for adjudications to resume.
    There are several reasons for this failure. First, I think 
it is widely acknowledged that it just does not work any longer 
to combine the conflicting missions of enforcement and 
adjudications. They really have different missions, they 
require different skills, and their professionals should have 
different career paths.
    Second, the development of the Immigration Service 
management simply has not kept pace with the vast changes in 
the law the last decade and the tremendous growth in the size 
of the Immigration Service. Too many senior managers are 
without expertise in leading large service operations, and for 
many senior managers, their career path has zigzagged back and 
forth between service functions and adjudications functions. I 
do not mean to be critical, because I think that there are few 
government agencies with as dedicated and hardworking members 
as the Immigration Service, but it is precisely because of its 
structure that they are having a hard time succeeding today.
    Adjudications suffers from a shortage of resources, and not 
just a shortage of resources, but also the timing of the 
resources provision. As was mentioned previously, in many 
cases, there has been an increase in revenues because of an 
increase in applications in the first quarter of the year, but 
those funds are not released for expenditure until the last 
quarter of the year, and in some cases until the first quarter 
of the next year.
    Finally, there has been an ongoing series of mandates for 
special projects--special investigations, special audits, 
multiple outside management studies, most of which have been 
paid for from the exams or other user fee accounts.
    In contrast, S. 1563 lays a foundation, an important 
foundation, for change. First, it separates the enforcement and 
adjudications functions into two separate bureaus.
    Second, it establishes the Associate Attorney General for 
Immigration Affairs, who will provide unified leadership on 
policy matters to both agencies.
    Third, it provides coordination between the two bureaus 
through the Associate Attorney General by providing policy and 
planning coordination, as well as administration of shared 
support resources.
    Finally, S. 1563 calls attention to the need to limit user 
fee funds to services for which they are intended and for which 
they were provided.
    In closing, I would like to focus on three additional 
points. First is that the reorganization of the Immigration 
Service is a means to an end. The goal has to be for all of us 
that both enforcement and adjudications are done effectively, 
efficiently, and fairly, and that is both in the interest of 
immigrants, new Americans, and all Americans.
    Second, the Congress can help make the reorganization of 
the Immigration Service a success through continued attention 
and oversight through the implementation of reorganization 
after enactment.
    And finally, on the funding issue, additional attention by 
the committee is warranted to the sources of funding, how they 
are utilized, and when they are made available.
    I want to thank you again for this opportunity to testify. 
Our association has been close working partners with the 
Immigration Service since our association was founded in 1946 
and we want to continue to work with your committee, as well, 
to go forward on this important mission.
    Senator Abraham. Thank you very much.
    [The prepared statement of Mr. Leiden follows:]

                 Prepared Statement of Warren R. Leiden

    Mr. Chairman and distinguished Members of the Subcommittee, I am 
honored to be here today representing the American Immigration Lawyers 
Association (AILA). AILA strongly supports S. 1563, the INS Reform and 
Border Security Act of 1999, recently introduced by Senators Abraham, 
Kennedy and Hagel. S. 1563 will go a long way toward resolving the many 
complicated issues that must be addressed before reorganizing a federal 
agency that affects the lives of so many people and should lay the 
foundation for important improvements in both the enforcement and 
service functions.
    By way of introduction, AILA is the national bar association for 
immigration attorneys in the US, with nearly 6,000 attorney members, 
and is an affiliated organization of the American Bar Association. AILA 
takes a comprehensive view of immigration matters. AILA Members provide 
representation in virtually all types of immigration cases: individuals 
and families who have applied for permanent residence; thousands of 
U.S. businesses that sponsor both temporary and permanent workers; and 
foreign students, entertainers, athletes, and asylum seekers, often on 
a pro bono basis. AILA appreciates this opportunity to express its 
views on the issue of the restructuring of the Immigration and 
Naturalization Service (INS).
                  overview of the restructuring issue
    As the federal agency responsible for enforcing U.S. immigration 
law, guarding the borders of our nation, inspecting those who seek 
admission, and adjudicating applications for naturalization, asylum, 
and family and business immigration, the INS needs to function 
efficiently, effectively, and fairly. Unfortunately, it is currently 
failing to do so, despite the dedicated efforts of so many of the men 
and women who staff the agency.
    There are many reasons for this failure, and the Administration and 
Congress must share some of the responsibility.
    First, the agency has the important combined mission of immigration 
enforcement and adjudications, two functions that need to be both 
better differentiated but also better coordinated and lead.
    Second, in the past decade there have been vast changes in 
immigration law and unprecedented growth in the INS' size and 
responsibilities. Yet, the development of the INS leadership and 
management team has not kept pace, often resulting in ineffective 
management and uncertain direction. Individuals who are effective in 
law enforcement are promoted to senior roles in service management and 
vice versa, with many career paths zigzagging between law enforcement 
and adjudications.
    Third, the continued shortage of, and failure to timely provide, 
adequate resources to the adjudications side must be addressed by 
Congress if its efforts on restructuring are to bear fruit. The 
processing time delays, halts in adjudications, and regional 
disparities have reached a breaking point. U.S. families and employers 
suffer personal and economic hardship, INS personnel become 
demoralized, and the public loses faith when the immigration laws are 
not enforced or adjudicated consistently, professionally, and humanely.
    Finally, these existing problems have been exacerbated by an 
ongoing series of unfunded, complicated and often conflicting mandates 
imposed by the Administration and Congress. To our knowledge, most of 
the investigations, audits, and outside management reports have had to 
be paid for from the already limited funds of the user fee accounts, 
deepening the funding shortage.
    AILA is on record urging the creation of a new, independent 
cabinet-level department or agency combining all current immigration 
functions of the INS and the Departments of Justice, State, and Labor. 
Such an agency could separate the immigration services and enforcement 
functions. If a new, independent agency is not feasible, AILA urges the 
creation within the Department of Justice of two separate entities--one 
for service and one for enforcement--overseen and led by an Associate 
Attorney General for Immigration Matters, who reports directly to the 
Attorney General.
    Unified leadership at the top is essential to success of all 
subsequent reforms of the immigration function. It would improve 
accountability by fully integrating policy making with policy 
implementation, ensure direct access to high-level officials within the 
executive branch, attract top managerial talent, and coordinate the 
distinct efforts of the two bureaus.
    In other words, AILA believes that Congress needs to separate the 
adjudications and enforcement functions but keep them in the Department 
of Justice. There must be single authority to whom both functions are 
accountable to ensure strategic coordination and to lead both an 
integrated national enforcement strategy and an effective immigration 
services function.
    As you know, as a member of the U.S. Commission on Immigration 
Reform, I was able to study at length the operations and structure of 
the INS, and wrote in my statement in the final report to Congress in 
1997:

          Separation of functions would permit the establishment of 
        unified, focused chains of command and operations at every 
        level. Separation of enforcement from adjudications would allow 
        each function to have a clear mission and to set clear goals on 
        which performance could be judged and accountability enforced. 
        Separate functions would benefit greatly from the ability to 
        gear hiring, training, promotions, and discipline to a clear 
        mission.I66* * * * *
          The two main functions of the INS--enforcement and 
        adjudications--should be separated into two different agencies 
        within the Department of Justice, with separate leadership. 
        This would also permit the insertion of a senior level office 
        in the Department of Justice to coordinate and lead the 
        separate functional agencies.
                   principles of ins re-organization
    AILA has worked with and studied the INS since the Association's 
founding in 1946. As a result of the collective experience of our 
members across the United States, AILA has adopted four principles that 
we believe should guide any INS reform.
(1) Separation of the enforcement and adjudications functions
    Separation of these two functions will lead to more clarity of 
mission and greater accountability, which will lay the necessary 
foundation for more efficient adjudications and more accountable, 
consistent, and professional enforcement.
    S. 1563 meets this principle. It would create two separate Bureaus 
within a newly created Immigration Affairs Agency in the Department of 
Justice: The Immigration Services and Adjudications Bureau and the 
Immigration Enforcement and Border Affairs Bureau. Most importantly, S. 
1563 provides for coordination between the two Bureaus, so that the 
benefits of communication and information-sharing can continue. S. 1563 
also establishes immigration Inspections, which combines service and 
enforcement functions, as a separate entity within the Immigration 
Affairs Agency. While AILA believes that Inspections is almost entirely 
an adjudications function (and thus most properly belongs in the 
Immigration Services and Adjudications Bureau), we do not oppose this 
function as a separate entity within the Immigration Affairs Agency.
    H.R. 2528, introduced by Representatives Rogers (R-KY), Smith (R-
TX) and Reyes (D-TX), would divorce the INS' enforcement and 
adjudications functions. However, there is no adequate provision for 
coordination between the two entities, not to mention the uncertainty 
of leadership over them. This appears to be a case of going from one 
extreme to the other.
    In addition, H.R. 2528 would house immigration inspections in the 
enforcement bureau, which we find to be inappropriate. AILA strongly 
opposes the inclusion of Inspections in the enforcement bureau. 
Immigration Inspectors have quasi-judicial authority, and they are 
called upon daily to both acquire facts and to render a decision on 
those facts. Placing them in an enforcement bureau (with a pure 
enforcement mission) would provide no checks or balances to ensure that 
inspectors continue their quasi-judicial role and do not deport 
legitimate asylum seekers, refugees or immigrants. In addition, H.R. 
2528 would authorize a plan that would require that people applying for 
asylum and others be detained by the Bureau of Prisons. AILA cannot 
support a policy of locking up non-criminal refugees and immigrants 
with convicted criminals. In our opinion this would violate 
international treaties to which the U.S. government is a signatory.
(2) Accountability and leadership at the top
    Appoint a high level, full-time person at the top, in charge of 
supervising both functions, who will be able to integrate policy making 
with policy implementation, as well as to coordinate the separate 
service and enforcement chains of command.
    There needs to be one full-time, high level person in charge of our 
nation's immigration functions. The adjudications and enforcement 
functions are distinct, with different missions, different goals, 
different organizational cultures, and different career paths. However, 
they also need to be coordinated at the top, and there needs to be 
strong authority to which each function reports that will hold them 
accountable for their accomplishments and their short-comings.
    S. 1563 fulfills that principle by creating the Associate Attorney 
General for Immigration Affairs. The Associate Attorney General for 
Immigration Affairs can provide full-time oversight, supervision, and 
coordination to the two functions without having direct operational 
responsibility. As the source of policy and planning formulation on 
immigration matters, the Associate Attorney General's office would set 
goals and review progress toward the goals of both functions. The 
Associate Attorney General would have authority at a very senior level 
in the Justice Department and would be expected to have direct access 
to high-level officials within the executive branch.
    In contrast, H.R. 2528 provides for no full-time coordinating 
entity of the adjudications and enforcement functions, relying instead 
on the part-time divided attention of the Deputy Attorney General, to 
whom both functions would report. Based on past experience, we conclude 
that this type of coordination is inadequate, even when the functions 
are part of a unified whole. With the functions separated, we fear that 
such part-time oversight would make it virtually impossible to 
articulate or implement a coherent, unified immigration policy.
(3) Split the functions, but establish coordination between enforcement 
        and adjudications
    S. 1653 recognizes the need for the two bureaus to be closely 
coordinated. The bill achieves this coordination by establishing the 
Office of the Associate Attorney General for Immigration Affairs with 
authority over the two bureaus. Most fundamentally, the planning and 
policy making of the Associate Attorney General will necessarily result 
in unified goals and coordinated policies between the two bureaus. 
Built into the proposed structure is the understanding of the need to 
share records and information between the two bureaus, albeit for 
different purposes. The Office of the Associate Attorney General will 
be responsible for all records and information, and the technology and 
management needed, for the two bureaus. Moreover, it will be the source 
of legal counsel and administrative infrastructure, including personnel 
and training.
    In contrast, H.R. 2528 would make such coordination difficult. 
There does not appear to be provision for the hammering out of unified 
policies. As a result, we fear that, under H.R. 2528, the two bureaus 
would end up working at cross-purposes, with their leaders sending 
conflicting messages on policy matters and interpretation of our 
complex laws.
    Without a structural linkage between the two agencies to access 
records and information, routine requests for records checks could 
become a Kafkaesque nightmare. Congressional staff handling requests 
for information and assistance on immigration matters also would have 
to deal with two separate agencies, making their jobs much more 
difficult and time-consuming.
(4) Adequate resources: Provide adequate resources for the 
        adjudications function. Ensure that direct Congressional 
        appropriations are available to supplement user fees
    As Congress considers reforming the INS, we urge you to also review 
the funding of immigration functions. Currently, enforcement functions 
are supported by Congressional appropriations, while adjudications are 
almost entirely funded by user fees.
    In theory, the filing fees paid by employer and family petitioners 
and applicants for immigration benefits should be used for adjudicating 
their petitions and applications. In practice, however, large portions 
of the user fees are diverted to support other functions. During fiscal 
year 1998 and fiscal year 1999, for example, Congress mandated the 
diversion of about $300 million (including Sec. 245(i) revenue) to pay 
for Justice Department oversight, Inspector General investigations, and 
infrastructure costs that appear to not be related to directly 
supporting immigration benefits.
    Immigrant applicants and their petitioners, who already are 
experiencing lengthy delays and unacceptable levels of service, should 
not be forced to ``pick up the check'' for programs unrelated to the 
processing of their applications. In fact, user fees should not be 
viewed as general tax revenue. The responsibility for agency oversight 
and for programs that do not generate fees should be shared among all 
taxpayers--not just those who happen to be petitioning or applying for 
immigration benefits.
    AILA supported the establishment of the Examinations Fee Account 
when it was first created as a solution to the adjudications problems 
of the day. Unfortunately, despite some improvements in the intervening 
years, adjudications delays and nonperformance are now worse than ever 
for almost all types of cases. The hundreds of millions of dollars paid 
into the Examinations Fee Account are just not being used 
proportionately for adjudication of petitions and application. Given 
its history and the current situation, the Examinations Fee Account 
cannot be seen as the sole support for the Adjudications function. It 
is now our view that Congress should supplement user fees with 
Congressional appropriations to ensure that an appropriate level of 
service is achieved. In addition, we urge Congress to reject the 
diversion of funds from the user fee accounts to pay for important but 
indirect and unrelated initiatives. Congress needs to find sources of 
funding, other than from user fees, to pay for these efforts.
    S. 1563 recognizes this problem, and provides financing reforms. 
Specifically it would require that fees collected for an adjudication 
or naturalization service be used only to fund those services or the 
costs of other similar adjudications. This is an important first step 
in the right direction.
    In contrast, H.R. 2528's stunning silence on funding leaves one to 
wonder whether the Adjudications funding crisis is acknowledged or 
understood. Failure to begin to address Adjudications funding issues 
will further postpone badly needed improvements to customer service and 
a solution to the nearly three year backlog faced by legal immigrants 
waiting for green cards or citizenship.
                               conclusion
    In closing, let me reiterate that AILA strongly supports S. 1563 
because it adheres to the four principles noted above. It also is 
important to remember that:

  <bullet> Restructuring is but the first step in a long process, the 
        end result of which is effective, efficient, and fair 
        adjudications and enforcement. Both Congress and the 
        immigration agency need to be mindful of the end result. 
        Congress must continue to pay attention to the INS's needs and 
        the demands it faces, while the agency needs to deliver on its 
        promises.

  <bullet> Congress has the opportunity to make reorganization a 
        success: Congress must be ever mindful about its important role 
        in creating and maintaining a vital and successful federal 
        immigration function. Conflicting, complicated and unfunded 
        mandates will threaten the agency's ability to fulfill its 
        mission and bring us right back to where we are today.

  <bullet> Any meaningful restructuring of the immigration function 
        needs to include financing proposals. Restructuring would be 
        incomplete without also reviewing the sources of funding for 
        this function. Especially given the diversion of funds in the 
        adjudications function noted above, any successful 
        restructuring plan must respond to the funding demands of the 
        adjudications function. Both enforcement and adjudications are 
        in the national interest and should be adequately funded.

    AILA is dedicated to working with Congress and the INS to ensure 
that reorganization succeeds. S. 1653 is a huge step towards that end. 
We appreciate the opportunity this hearing has given us to explore this 
important issue. Thank you.

    Senator Abraham. We will now turn to Mrs. Yoskowitz. I want 
to say, before you start, as a constituent, I want to thank you 
for the dedication and hard work that you and the other members 
of our Detroit Area Coalition for Responsible Immigration 
Policy have been doing. I think it really makes a difference, 
and even though it does not necessarily always get a lot in the 
limelight, I think the work of the coalition has been terrific. 
We appreciate it and welcome you here today. Thanks for coming.

                STATEMENT OF RACHEL S. YOSKOWITZ

    Mrs. Yoskowitz. Thank you. Thank you, Senator. It is a 
pleasure to be here. In fact, it is a privilege and a 
responsibility to be here as a representative of the Jewish 
Family Service of Metropolitan Detroit and our coalition 
partners. We have been resettling refugees at JFS since 1937, 
and in December 1996, we began assisting people with 
citizenship. We have assisted over 4,000 people from 42 nations 
in this short time period, and I will be discussing their 
issues at this time.
    We can categorize them into issues of delays, denials, and 
dissonance, and we find these issues not only within the 
Detroit District INS, but Detroit is but a microcosm of the 
entire country and I like to think that our district is better 
than most because of you, Senator, and in defence to you and 
your commitment.
    I in no way want to cast aspersions on individual INS 
officers. In individual encounters, INS representatives 
demonstrate concern for the immigrant cohort, knowledge of the 
laws, but they are overburdened by inadequate resources and 
inadequate training with which to address the overwhelming 
backlog of cases.
    Why, in this technologically sophisticated age, when the 
click of a mouse enables us to access more information than we 
ever need, are cases, files, lost by INS? A native of the 
former Soviet Union who entered this country in New York and 
resides in Detroit has an INS file in the District of Columbia. 
A native of Southeast Asia in Detroit has a file in L.A. N-400 
applications are processed in Lincoln, NE. Fingerprints are 
processed in Pennsylvania. With each geographic location, we 
increase the opportunity for lost files. This is highly 
inefficient of time, increases the risk of loss, and 
compromises consumer confidentiality.
    In terms of issues with green cards, that has been 
addressed by others, and I will be happy to address them more 
specifically in Q and A if you would like.
    Because INS lacks the capacity to meet the stated need for 
service, it has prioritized naturalization applications and 
adjudication in this area. And though their target is 6 months 
for processing N-400's, the reality is that this timeframe is 
double or triple in Detroit, with a 12- to 18-month time lag. 
Nationally, we are hearing that it is 18 to 24 months.
    Individuals in Michigan are now fingerprinted at applicant 
support centers, which is much more efficient because there is 
not as much of a timeframe for them to wait to be printed. 
However, we do not have a digital print scanner. People are 
still printed the old fashioned way, and their prints are often 
rejected and they must be repeatedly reprinted. It breaks my 
heart to see seniors with their hands bent by arthritis, 
swollen with fluid, the skin surfaces worn smooth by hard 
physical labor have to be reprinted three and four times, in 
spite of policy capping fingerprints at two unsuccessful 
attempts.
    It is crucial that the culture of INS be converted to one 
of service. Regardless of the infrastructure changes which you 
are so wisely recommending, there must be an attitudinal change 
in INS staff. Any restructuring of INS must also address 
mandatory training functions with adequate appropriations to 
assure INS officers will be customer service oriented in all 
jurisdictions, including overseas processing centers, and it is 
my hope that a product of the restructuring of INS will be 
implementation of a quality structure to address the problems 
of overseas processing.
    National policies need to be clearly presented to all 
district and local offices so all officers at all levels are 
familiar with national policy. Oversight of INS policy 
implementation must be a major component of national office 
responsibility, and it is imperative that there be a single 
central strong leader vested with authority to represent all 
INS jurisdictions.
    Sitting here is the granddaughter of a lumber merchant from 
Zhitomer, Ukraine, and a soldier who went AWOL from the czar's 
army to come to America, men who naturalized and loved this 
country with all their hearts. I fully realize our sacred trust 
to assure the same opportunity for others.
    The first image we present to those stepping foot on our 
soil is often the image of INS. I trust that your deliberations 
and those of the full Congress and subsequent reform of INS 
will assure that every immigrant coming to our country will be 
welcomed in dignity, treated fairly, and his issues will be 
adjudicated quickly.
    Senator Abraham, I want to conclude my remarks by thanking 
you again for giving me this opportunity today, and on behalf 
of all of our community-based organization partners in the 
immigrant service community, we thank you from the bottom of 
our hearts for your interest. Under your guidance, your 
district staff and the staff of this committee are consistently 
approachable, professional, and responsive. Thank you for your 
leadership.
    Senator Abraham. I thank you. I am very flattered that you 
had those feelings and we appreciate the working relationship 
we have had with your organization and the others. It is great.
    [The prepared statement of Mrs. Yoskowitz follows:]

               Prepared Statement of Rachel S. Yoskowitz

    Mr. Chairman, members of the sub-committee, ladies and gentlemen: 
Thank you for the commitment, thoroughness and seriousness of purpose 
with which you have approached your task of reforming the Immigration 
and Naturalization Service. It is my privilege and responsibility to be 
here today participating in this aspect of our democratic process. As a 
representative of many others, I will try to faithfully represent those 
for whom I speak. Though a partner in multiple ethnic and faith based 
coalitions, as detailed in the written testimony before you, today, I 
will not speak for the coalitions but rather for the many thousands of 
foreign born whom we serve. These individuals who are legally residing 
in the United States have been voiceless and powerless in impacting the 
workings of our INS.
    The infrastructure and process issues which I am addressing today 
while occurring within the jurisdiction of the Detroit District INS are 
not unique to that jurisdiction. Detroit is but a microcosm of the rest 
of the country and may, in fact, be a little better than most districts 
in deference to the priorities of the Senator from Michigan who chairs 
this sub-committee.
    The issues before us are service issues. These issues can be 
categorized as delays, denials, dissonance. In no way do I want to cast 
aspersions on individual INS officers. In individual encounters, each 
officer has demonstrated concern for the immigrant cohort and knowledge 
of the laws which INS must uphold. However, these well-intentioned 
individuals are over burdened by lack of material and human resources 
as well as adequate training with which to address the overwhelming 
backlog of cases with which they are confronted. Currently, in the USA, 
there is a backlog of 45,000 refugees; 37,000 asylees; and thousands of 
others awaiting adjustment of status. These numbers convert to a delay 
of 34 months from application to adjudication for green card and of 18-
24 months from application to naturalization adjudication for 1.75 
million future citizens for a green card--Why?
    Why indeed? Why in this technologically sophisticated age when the 
click of a mouse enables us to access more information than we ever 
want or a need--are INS files lost?
    A native of the Former Soviet Union, who entered this country in 
N.Y. and resides in Detroit has an INS rile in D.C.; a native of 
Southeast Asia living in Detroit has a file in L.A.; naturalization 
applications (the N-400) are processed in Lincoln, Nebraska; 
fingerprints are processed in Pennsylvania. With each geographic 
location requesting a hard copy file and transfer of riles, is it any 
wonder that riles can't be located? Even locally--riles are 
transferred. A file coming into Detroit District main office will be 
transferred to the airport for an adjustment of status interview--then 
back to District then back to D.C. This is highly inefficient of time, 
increases the risk of loss and compromises client (consumer) 
confidentiality.
    In our technological age, it is incomprehensible that a piece of 
equipment which prepares ``Green Cards'' for LPRs does not work. Yes, 
there is 1 Center in Nebraska for preparing all Green Cards and the 
machine which does this task is faulty. Consequently, the individuals' 
names are misspelled, the Dates of Birth are incorrect or the Dates of 
Entry to the USA are incorrect. Every second green card prepared in 
Nebraska is inaccurate. Imagine that, a 50 percent failure or success 
rate. That's not acceptable. Individuals who applied to adjust status 
in 1997 and 1998 are only now receiving their green cards which are 
erroneous and must, therefore be returned to Nebraska for correction.
    How long will it take for a correct card to be issued? In the 
interim, employment, college admission, financial aid applications for 
universities are all on hold for the consumer. Life is in limbo because 
the one piece of equipment to process all requests for Green Cards, 
doesn't work.
    The backlog of applications for adjustment of status is very 
substantial. Since July 1998 with the Nebraska Service Center became 
the single point of contact for adjustment of status requests not a 
single new individual has been interviewed for a green card.
    The INS lacks the capacity to meet the stated need for service, and 
has therefore, prioritized Naturalization applicants. All others are on 
hold. Even with prioritization of naturalization applications, there is 
not an efficient process for review and adjudication in this category.
    Within our district, although there is a target of 6 months for 
processing N-400s the reality is double or triple that with a lag of 
12-18 months from application to adjudication. With the implementation 
of the off site Applicant Support Centers--the fingerprint process is 
more efficient. Individuals are printed by appointment and seen within 
an hour of the scheduled time. Yet, Detroit--a community of <INF>XXX</INF> 
L.P.Rs still does not have the digital print scanner and to our 
knowledge, the district is not on the scheduled list of communities to 
receive scanners. Our district still prints the old fashioned way.
    Consequently, many individuals have their prints rejected and must 
be reprinted repeatedly. How it breaks my heart to see immigrants in 
their seventies with hands bent by arthritis, swollen with fluid and 
skin ridges worn smooth by age and years of hard physical labor 
reprinted 3 and 4 times--in spite of the regulation capping 
fingerprints at two unsuccessful attempts. (Refer to case specific data 
attached) Each fingerprint rejection extends the delay in the 
individual naturalization process--Why is the full implementation 
process of the technologically efficient ASC being delayed?
    Similarly--all N-400s are mailed to a central processing site in 
Lincoln, Nebraska there is one direct mail address. There is also one 
phone number for the service center to which CBOs working on behalf of 
consumers must address all inquiries. One number which is most often, 
inaccessible, continuously busy. BIA accredited representatives leave 
voice messages on an answering machine to inquire about the status of 
cases. Voice messages that are never returned. It is crucial that the 
culture of INS be converted to one of Service. Regardless of the 
changes in infrastructure which you are so wisely recommending, there 
must be an attitudinal change for all INS staff--so they can treat all 
immigrant clients with respect, courtesy and cultural sensitivity--i.e. 
A Moslem woman with a head cover who avoids eye contact with the male 
INS officer is not a liar, she is modest and acting according to her 
belief system. An elderly ``stutterer'' who can not respond quickly 
enough to a question, is not a liar, he is slow of speech; a senior 
citizen who was a member of the Communist party in Kiev or Moscow or 
Leningrad as a condition of his employment twenty years ago, is not a 
threat to the United States today. Let me share the case of Tamara, an 
elderly Russian refugee who entered the USA under the provisions of the 
Lautenberg Amendment. She has advanced ms, her hands shake with 
uncontrolled tremors, she is confined to a wheelchair. Tamara's 648 
(medical waiver) was denied and she was called for an INS interview to 
naturalize. At the interview, her caregiver was not permitted to be 
with her. The INS officer again refused to consider her waiver and 
proceeded to test her ability to write English. She placed a pen in 
Tamara's shaking hands and began to dictate. She was unable to hold the 
pen or to write. The INS officer said, ``I'll steady your hand'' and 
proceeded to ``assist'' her. Tamara fainted. The officer told her ``you 
did well''. She has heard nothing further. Her fingerprints have not 
cleared. This is not a kinder, gentler INS.
    Any restructuring of INS must address mandatory training functions 
with adequate appropriation to assure that INS officers will be 
customer service oriented, culturally sensitive and knowledgeable in 
applying federal statute equitably to all immigrants in all 
jurisdictions.
    All jurisdictions are inclusive of INS overseas processing 
locations. Please note that not only are there issues with INS process 
locally, district and nationally, but there are international 
implications of INS inefficiency, poor training and process failure in 
the overseas offices located in US Embassies and run by INS officers. 
These officers are truly the gatekeepers to the refugee and parolee 
programs. They must apply the law equally.
    It is my hope that a by product of the INS restructuring will be 
the implementation of a quality structure to address the problems of 
overseas processing.
    There must be consistency in the implementation of policy in all 
INS offices.
    National policies need to be clearly presented to all District and 
local offices so that all officers are familiar with national policies. 
All INS staff and interviewing officers must have access to the most 
recent regulations and directives from Washington. Oversight of the 
implementation of INS policy must be a major component of national 
office responsibility. Local offices must be able to appeal to 
appropriate staff at headquarters for specified concerns if problems 
are not adequately addressed by the regional/district office.
    In addition, structures for better day-to-day supervision and 
quality assurance also need to be in place. The waiting period for 
those in the naturalization process or for any other services provided 
by the INS local office should be uniform regardless of domicile. 
Accordingly, the INS should deploy resources to ensure a more even 
waiting period and that the location of INS office and ASC sites are 
easily accessible to consumers public transportation.
    Within whatever service structure is reengineered or reorganized, 
there needs to be an easily accessible appeals process for those who 
believe the decision on their application was in error, and a 
``complaint office'' where those who feel they have been unfairly or 
inappropriately treated can go to redress their grievance. Appeals must 
be completed within a reasonable time frame. Such information should be 
available to the not for profit organization working with the 
individuals having business with the INS and available to consumers in 
multiple languages.
    All fees collected from consumers by INS should be utilized on 
service delivery and improvement. None of these funds should be 
available to the enforcement structures. A national fee waiver policy 
must be in place to assure that everyone who is eligible for a service 
can receive it regardless of their ability to pay the fee. This policy 
must be implemented consistently in all offices.
    Individuals required to reapply to a service because of an INS 
error [e.q. list file] should not be required to pay another 
application fee. Appropriations for enforcement must be totally 
separate and apart from any federal funds for service provision.
    Attached to this testimony is a list of cases which remain 
unresolved. I am distraught that there are cases outstanding which have 
been pending for years. In testimony--these cases for reasons of 
protecting their privacy are cited only by initials. With the 
permission of this sub-committee, I would like to present this list of 
cases and full names and alien registration number to staff for further 
inquiry. These are only some of the cases requiring special attention. 
Most individuals who must navigate the INS system do not know to whom 
they can turn for assistance. Representatives of the CBOs see only a 
small portion of those who need assistance. The establishment of an 
independent Ombudsman's office may address this issue assuming that 
this function will be well funded, highly visible and readily 
accessible to the immigrant cohort. This access must be geographic and 
linguistic so that immigrants can adequately articulate their needs. 
Each jurisdiction's ombudsman office will have different language needs 
determined by the cohort of immigrants in that region, but translators 
are a basic necessity to make the office of the Ombudsman an effective 
component of the INS restructuring as proposed by the S.B. 1563--The 
INS Reform and Border Security Act of 1999.
    Sitting here as the granddaughter of the lumber merchant from 
Zhitomer, Ukraine and of the soldier who went AWOL from the Czar's army 
to come to America, naturalized and loved this country with all their 
hearts, I realize our sacred trust to assure the same opportunity to 
others. The first image we present to those stepping foot on U.S. soil 
is often the image of INS. It is our obligation to assure that image 
will be one which conveys all of the positive attributes which make our 
country the magnificent land of freedom which we so love. I trust that 
the deliberations of this sub-committee and the subsequent reform of 
the INS will assure that every immigrant coming to our country will be 
welcomed in dignity and treated fairly.
    Mr. Chairman, let me conclude my remarks by again thanking you for 
inviting me to be here today and share the concerns of our immigrants 
with you. I am also most appreciative of your on going commitment to 
and concern for the immigrant population. Your staff and the staff of 
this committee are consistently approachable and responsive to the 
immigrant concerns. Thank you for your leadership in this area.

    Senator Abraham. Mr. Bonner, we welcome you. Thanks very 
much for being part of today's hearing, and we will turn to you 
for your testimony at this time.

                    STATEMENT OF T.J. BONNER

    Mr. Bonner. Thank you, Mr. Chairman. On behalf of the 
23,000 INS employees represented by the National Border Patrol 
Council and National Immigration and Naturalization Service 
Council, I would like to express our thanks to you and to the 
other distinguished members of the subcommittee for the 
invitation to present our views concerning this important 
legislation, as well as your leadership in this and other 
immigration issues.
    The debate has shifted from whether the INS should be 
reorganized to how it should be reorganized. Thanks to the 
leadership of this subcommittee, many facets of the INS Reform 
and Border Security Act of 1999 contain essential elements of a 
successful reorganization. Most importantly, it has a strict 
delineation between enforcement and service.
    Perhaps equally importantly, it establishes the Office of 
the Associate Attorney General for Immigration Affairs to 
provide key leadership to ensure that the enforcement and 
service bureaus coordinate their efforts in a cooperative 
fashion. Separate chief financial officers for the enforcement 
and service bureaus will ensure that funding earmarked for a 
given program is not diverted to a different program. The 
shared resources concept is a practical solution to balance the 
desire for totally separate support structures with the need to 
provide support within realistic means. The three-year 
extension of annual increases of 1,000 Border Patrol agents 
will provide critical reinforcements and is greatly 
appreciated.
    Many employees are concerned by the broad personnel 
flexibility granted to the Attorney General under the 
legislation. While it is clear that a certain amount of 
flexibility is necessary and some administrative and senior-
level management positions will be eliminated, the flexibility 
should be limited to those positions. In order to avoid 
disruptive morale problems, front-line employees should be 
assured that their position, duties, pay, and geographic 
location will not change as a result of the reorganization. 
otherwise, it will be extremely difficult to convince them that 
a reorganization is in their best interest and obtain their 
needed support.
    The establishment of a new agency also creates the 
potential for disrupting the relationship between management 
and labor that has existed for 35 years by exposing employees 
in the new law enforcement agency to the specious claim that 
they are exempt from the protections they currently enjoy 
because they are engaged in national security work. If these 
employees somehow lost those protections, Congress and the 
public would lose the single most valuable source of candid 
information and feedback about the efficiency and effectiveness 
of the new agencies.
    The councils, therefore, strongly urge that this disruptive 
scenario be avoided by inclusion of language in the legislation 
that makes it clear that the employees of the new bureaus 
remain entitled to the protections of the Civil Service Reform 
Act.
    Similarly, language preserving the existing bargaining 
units and collective bargaining agreements would eliminate the 
potential for disruption from successorship issues that could 
arise from the creation of a new agency.
    Replacement of the inspections program under the 
Immigration Affairs Agency instead of the enforcement bureau is 
problematic because it fails to recognize that these employees 
perform essential law enforcement functions in addition to 
facilitating the legal entry of millions of people into the 
country. In this respect, they are no different than police 
officers engaged in traffic enforcement. While one of their 
functions is to facilitate the movement of traffic, an equally 
important function is to issue citations and arrest criminals.
    During 1998, immigration inspectors arrested more than 
25,000 criminal aliens, initiated 23,000 prosecutions, 
apprehended 3,900 drug smugglers, made over 3,100 drug 
seizures, intercepted 126 terrorists, prevented the illegal 
entry of 735,000 inadmissible aliens, seized nearly 100,000 
fraudulent documents, and were assaulted 42 times in the line 
of duty.
    The proposal to grant both investigative responsibility and 
disciplinary power to the Office of Professional Responsibility 
would create several serious problems. Aside from the obvious 
conflict of interest, lack of impartiality, and denial of due 
process that would result, taking disciplinary power away from 
those with supervisory responsibility would seriously undermine 
their ability to maintain order in the workforce.
    The provision requiring the new agency to use the fair and 
equitable treatment of aliens by employees as one of the 
standards for evaluating employee performance has a potential 
problem. It is troubling to the extent that it would discourage 
law enforcement employees from asserting their legal authority 
out of fear that it would negatively impact their performance 
evaluation. This could result in decreased enforcement of 
immigration laws, as well as increased assault against 
employees. Accordingly, the councils recommend that the 
standard be defined differently for law enforcement personnel 
than for service employees.
    In conclusion, the councils strongly endorse the concept of 
separating the enforcement and service functions of the INS and 
believe that this legislation contains many of the elements 
necessary for a successful reorganization and are confident 
that the other elements will be added or improved as the 
legislation advances.
    Mr. Chairman, we again commend you for your leadership on 
this issue and thank you for considering our concerns.
    Senator Abraham. Thank you, and thanks for being here to 
share them with us. We appreciate it and will continue, 
obviously, to work with the association.
    [The prepared statement of Mr. Bonner follows:]

 Prepared Statement of T.J. Bonner, President, National Border Patrol 
  Council and Charles J. Murphy, President, National Immigration and 
                     Naturalization Service Council

    Immigration issues have been at the forefront of public debate for 
the past several years. As a result, the Immigration and Naturalization 
Service has received unprecedented increases in personnel and funding. 
Despite this, it remains unable to slow, much less stop, the tide of 
illegal immigration, or to efficiently process the immigration benefits 
under its jurisdiction. Examples of such inefficiencies and 
mismanagement surface almost daily. Many of the most compelling and 
shocking accounts are relayed through the employee unions on behalf of 
frustrated employees who want to do a good job but are stymied by an 
inept bureaucracy.
    One of the reasons for these problems is the current structure of 
the I&NS, which places the responsibility for handling both the 
enforcement and service functions under the same offices, causing both 
functions to suffer. There is no longer any legitimate reason to debate 
whether or not these functions should be separated. The debate should 
now be focused on how to best accomplish this necessary division. The 
National Border Patrol Council and National Immigration and 
Naturalization Service Council, representing over 23,000 employees, 
would like to share some thoughts regarding the elements they believe 
are necessary for a successful structure, as well as their concerns 
regarding certain aspects of various approaches that have been 
advocated.
    Close coordination and cooperation between the enforcement and 
service functions is crucial to the success of any reorganization 
effort, especially since a sizeable number of benefit applications are 
fraudulent. The Office of the Associate Attorney General for 
Immigration Affairs created by the INS Reform and Border Security Act 
of 1999 would provide this key leadership.
    A clear separation of funding and the creation of separate offices 
to handle the financial affairs of each function are also essential to 
a successful reorganization. The present system has resulted in far too 
many instances of funding being diverted for purposes other than those 
for which it was intended. Assuming that the Chief Financial Officer 
for the Immigration Affairs Agency would not have the ability to 
transfer funds between the service and enforcement bureaus, the 
structure proposed in S. 1563 would ensure this separation.
    Another essential element required for a successful reorganization 
is adequate support for the two core functions. The recognition in the 
legislation that certain economies can be realized by sharing some 
support services is a practical solution to balance the desire for 
totally separate support structures with the need to provide support 
within realistic means.
    The Councils greatly appreciate the commitment of the Chairman and 
Subcommittee to provide necessary increases to the Border Patrol agent 
workforce by extending by three years the coverage of Section 101(a) of 
the Illegal Immigration Reform and Immigrant Responsibility Act of 
1996, which provides for an annual supplement of 1,000 agents. The 
Councils recommend that Section 101(b), which provides for a 
corresponding annual increase of 300 support positions, also be 
extended for the same period.
    It is clear that a certain amount of personnel flexibility is 
necessary to effectuate a reorganization of the magnitude envisioned, 
as some administrative and senior-level management positions will be 
eliminated. The broad language of the legislation, however, would 
extend this flexibility to all positions, not just those that would be 
eliminated by the reorganization. Although the legislation is not 
intended to effectuate wholesale personnel changes unrelated to the 
reorganization, the proposed language would empower bureaucrats with a 
different vision to circumvent that intent. In order to avoid 
disruptive morale problems, front-line employees should be assured that 
their position, duties, pay and geographic location will not change as 
a result of the reorganization. Otherwise, it will be extremely 
difficult to convince them that a reorganization is in their best 
interest and obtain their needed support.
    The creation of new agencies also creates the potential for 
disrupting the relationship between management and labor that has 
existed within the MNS for approximately thirty-five years. The 
Councils are concerned by reliable reports that certain senior-level 
managers intend to attempt to eliminate labor organizations within the 
newly created enforcement bureau by claiming that all such employees 
are exempt from the protections they currently enjoy because they are 
engaged in national security work. While this claim is specious at 
best, the ensuing conflict would be extremely disruptive and damaging 
to the relationship of the parties. Moreover, if such protections were 
somehow lost, Congress and the public would lose the single most 
valuable source of candid information and feedback about the efficiency 
and effectiveness of the new agency. The Councils strongly urge 
Congress to avoid this disruptive scenario by including language in the 
legislation that makes it clear that the employees of the new bureaus 
remain entitled to the protections of the Civil Service Reform Act.
    Similarly, the creation of separate agencies or even a single new 
agency would create the potential requirement for new labor 
organization election processes and a corresponding need to negotiate 
new collective bargaining agreements. This would also be extremely 
disruptive to the relationship between labor and management. It could 
easily be avoided by incorporating language into the legislation that 
preserves the existing bargaining units and collective bargaining 
agreements, and the Councils urge that this be done.
    The placement of the Inspections program under the Immigration 
Affairs Agency instead of the enforcement bureau is problematic because 
it fails to recognize that these employees perform essential law 
enforcement functions in addition to facilitating the legal entry of 
millions of people into the country. In this respect, they are no 
different than police officers engaged in traffic enforcement: While 
one of their functions is to facilitate the movement of traffic, an 
equally important function is to issue citations and arrest criminals. 
During 1998, Immigration Inspectors arrested more than 25,000 criminal 
aliens, initiated 23,000 prosecutions, apprehended 3,900 drug 
smugglers, made over 3,100 drug seizures, intercepted 126 terrorists, 
prevented the illegal entry of 735,000 inadmissible aliens, seized 
nearly 100,000 fraudulent documents, and were assaulted 42 times in the 
line of duty. While placement in the umbrella agency would be 
preferable to placement in the service bureau, it would subject the 
program to some of the same problems that all I&NS programs currently 
experience: The emphasis of the program shifts according to the 
inclination of the director. Under a director who is enforcement-
oriented, the program emphasizes enforcement, and under a director who 
is service-oriented, the program emphasizes service.
    The proposal to grant both investigative responsibility and 
disciplinary power to the Office of Professional Responsibility would 
create several serious problems. Aside from the obvious conflict of 
interest, lack of impartiality, and denial of due process that would 
result, taking disciplinary power away from those with supervisory 
responsibility would seriously undermine their ability to maintain 
order in the workforce.
    The provision requiring the new agency to use the fair and 
equitable treatment of aliens by employees as one of the standards for 
evaluating employee performance is troubling to the extent that it 
would discourage law enforcement employees from asserting their legal 
authority out of fear that it would negatively impact their performance 
evaluation. This could result in decreased enforcement of immigration 
laws as well as increased assaults against employees. Accordingly, the 
Councils recommend that such standard be defined differently for law 
enforcement personnel than for service employees.
    Finally, it needs to be recognized that reorganizing is not the 
sole answer to many of the troubles that plague the Immigration and 
Naturalization Service. A fundamental cultural change must occur at all 
levels in order to transform it into an organization that is capable of 
fulfilling its mission efficiently and effectively. Although MNS 
employees receive some of the most comprehensive and finest training 
available, they are rarely empowered to exercise independent judgement.
    In conclusion, the Councils strongly endorse the concept of 
separating the enforcement and service functions of the Immigration and 
Naturalization Service, and believe that this legislation contains many 
of the elements necessary for a successful reorganization, and are 
confident that the other elements will be added or improved as the 
legislation advances.

    Senator Abraham. I turn to Mr. Gallo. It is good to have 
you back.

                 STATEMENT OF RICHARD J. GALLO

    Mr. Gallo. Thank you, Mr. Chairman. My name is Rich Gallo 
and it is a pleasure to be before you today. I serve as the 
president of the Federal Law Enforcement Officers Association, 
FLEOA, which is a voluntary nonpartisan professional 
association representing more than 16,000 Federal special 
agents and law enforcement officers in America. We represent 
the Feds FLEOA. It is my pleasure to be here today to deliver a 
summary of FLEOA's position on the reform, restructure, and 
revitalization of the Immigration and Naturalization Service. 
As National President of FLEOA, I represent many of the 
outstanding men and women who enforce our Nation's immigration 
laws.
    The divisions, the investigation division, Border Patrol, 
and detention and deportation, of which we get our membership 
from within INS, make up the enforcement components of INS, 
along with the inspections and intelligence divisions. The men 
and women of these components risk their lives every day in an 
ever-increasingly dangerous line of work.
    In July 1998, two Border Patrol agents were killed. The 
first female agent was killed, along with a male trainee, while 
attempting to arrest a deranged murderer in San Benito, TX. 
Ironically, the INS has yet to implement the provision of the 
Immigration Act of 1990--this Act was passed by Congress in 
1990--that provided general arrest authority extending 
protection against legal liability to INS officers in such 
situations. I offer this as one example of many of the 
inefficiencies of the bureaucracy of INS.
    In brief, the work has changed, Congress has changed the 
laws and increased the funding, yet INS remains stuck in the 
1980's. Congressman Hal Rogers captures the essence of the 
problem in stating, ``The mission and jobs they are charged 
with are too big and too important to be botched, and that is 
what they have done, botched their jobs.''
    Mr. Chairman, I read two of your statements that FLEOA 
totally agrees with. One, ``It makes little sense to have a 
single agency, the INS, responsible for keeping out illegal 
immigrants and at the same time letting in legal immigrants and 
refugees.'' And, two, another quote of yours, ``We should 
consider splitting the INS up into one law enforcement agency 
and one legal immigration agency to increase the efficiency of 
both.'' Clearly, we cannot agree any more with you, Mr. 
Chairman, and we commend you and this subcommittee and your 
staffers for your determined efforts in this important 
endeavor.
    It is apparent that there is a broad bipartisan consensus 
in Washington for the separation of immigration law enforcement 
from benefit disbursement, but a wide spectrum of thought on 
how best to attack this problem. Sentiment runs from the 
Commission on Immigration Reform endorsement of piecemealing 
out different functions to the State and Labor Departments to 
the other end, a recommendation by Booz-Allen to give INS more 
time to get its house in order with an internal separation.
    FLEOA feels very, very strongly the solution lies in the 
middle. I have to say, though, the country cannot wait any 
longer, and no more further delays in rectifying this problem. 
As I travel to numerous FLEOA chapters throughout the country, 
and last night, I was in Cleveland, the INS special agents 
continually cite the urgent need for a substantive and dynamic 
reorganization of INS by separating the law enforcement 
branches from the benefits branches, with an increase in the 
staffing of special agents assigned to interior enforcement.
    INS has to be professionalized and depoliticized. Two 
separate bureaus, both within the Justice Department, one for 
immigration law enforcement, the other for benefit 
disbursement, will relieve INS's mission overload.
    Current INS district directors face severe pressures to 
provide services for aliens, sometimes with inadequate 
resources. When faced with such situations, the district 
directors, and just recently the directors in Chicago and 
Boston have done this, they frequently use enforcement agents 
as a labor pool to perform nonenforcement duties. This practice 
has continued for over 20 years and shows no signs of 
diminishing.
    I will give one example from the past. In Baltimore, the 
district director used all of the special agents in the 
district as ushers at a naturalization ceremony, including 
those special agents working undercover assignments, both long-
term and short-term undercover assignments. They were called in 
to act as ushers at a naturalization ceremony. It is unheard of 
in a law enforcement chain of command for that to happen. This 
is just one example of the ongoing nationwide problem within 
INS's management structure.
    In closing, Mr. Chairman, FLEOA respectfully submits that 
legislation providing for a substantive and complete 
reorganization of the INS be passed. Your legislation will 
greatly increase the morale in the enforcement branches of INS. 
With the legislation pending before the House and the Senate, 
FLEOA believes that the separation issue will be fully 
resolved. Thank you.
    Senator Abraham. Thank you very much.
    [The prepared statement of Mr. Gallo follows:]

                 Prepared Statement of Richard J. Gallo

    Good afternoon, Mr. Chairman and distinguished Members of the 
Subcommittee. I am honored to submit this written statement in support 
of my oral testimony for such an important and vital hearing. The 
Federal Law Enforcement Officers Association (FLEOA), is a voluntary, 
non-partisan professional association.
    FLEOA currently represents over 16,000 federal law enforcement 
officers and is the largest association for federal officers of its 
kind. Several years ago, FLEOA joined with all of the major state and 
local police national associations to form the Law Enforcement Steering 
Committee. The Law Enforcement Steering Committee also includes the 
following prominent and important organizations: Fraternal Order of 
Police, National Troopers Coalition, Major Cities Chiefs of Police, 
Police Executive Research Foundation, National Association of Police 
Organizations, National Organization of Blacks in Law Enforcement, 
International Brotherhood of Police Organizations and the Police 
Foundation. In becoming a part of this group, federal agents were able 
to add our voices to those of the over half a million state and local 
officers already commenting on the issues that our Association 
considers to be of greatest importance. I tell you today, as I have 
told my membership for the past three years that the continuing 
revitalization of immigration law enforcement is one of our highest 
priorities. That revitalization will be accomplished through passage of 
the recently introduced Reyes-Rogers-Smith Bill, H.R. 2528 in the House 
as well as the Abraham-Kennedy Bill S. 1563, with reconciliation of 
relatively minor distinctions in conference. FLEOA pledges to do 
everything possible to ensure swift and successful Congressional 
action.
    As National President of FLEOA, I represent many of the outstanding 
men and women who enforce our Nation's immigration laws. These men and 
women risk their lives every day in an ever-increasingly dangerous line 
of work. In fact, in July of 1998, the first female Border Patrol agent 
was slain along with a male trainee Patrol agent while attempting to 
arrest a deranged murderer in San Benito, Texas. Ironically, the INS 
has yet to implement a key provision of the Immigration Act of 1990 
(IMMACT) that would provide general arrest authority to extend 
protection against legal liability to INS officers in such very 
situations. That is correct, I said 1990! This tragic anecdote is not a 
mere criticism of the status quo but rather an indictment. I offer this 
by way of example of the total inefficiencies of that current 
bureaucracy. In essence, the work environment for immigration law 
enforcement has changed drastically; the statutory mandates as well as 
funding for immigration law enforcement have similarly undergone 
dramatic changes but yet the INS remains stagnant, at best and highly 
resistant to those very changes. The INS representation in FLEOA 
derives primarily from three organizational divisions: Investigations, 
Detention & Deportation, and the Border Patrol. These three, along with 
the Inspections and Intelligence Divisions, represent the enforcement 
components of the INS. I would ask that you keep them, and the complex 
bureaucratic framework in which they operate, at the forefront of your 
thoughts because I believe this is the essence of both the present 
problem and its potential solution.
    I read, with interest, your statements Mr. Chairman in The New York 
Times on January 17, 1997. At that time, you outlined your priorities 
for the Senate Immigration Subcommittee when addressing the Cypress 
Semiconductor Corporation in San Jose, California. I could not agree 
more that it makes ``little sense to have a single agency, the 
Immigration and Naturalization Service, responsible for keeping out 
illegal immigrants and, at the same time letting in legal immigrants 
and refugees''. Furthermore, you then suggested splitting the INS into 
two agencies. In August of 1997, The New York Times again quoted you as 
saying ``We should consider splitting the INS up into one law 
enforcement agency and one legal immigration agency to increase the 
efficiency of both''. Clearly, you have been on the cutting edge of 
this issue and we commend you, Mr. Chairman for your tenacious and 
determined actions in this most important effort.
    On March 31, 1998, the Honorable Harold Rogers questioned INS 
Commissioner Meissner regarding the current recommendations for 
restructuring by Booz-Allen, the INS Contractor, and stated, ``Did you 
look at two different agencies within Justice to achieve on one hand, 
enforcement; on the other hand, service matters?'' Mr. Rogers went on 
to point out the systemic formula for failure that even the Booz-Allen 
study would perpetuate when he stated, ``There is an inherent conflict 
with having this all in one agency * * * Even though you may have two 
separate chains of command, it eventually winds up on your desk Mr. 
Rogers echoed the concerns of both the Republican and Democratic 
leadership in concluding that the INS had collapsed under the weight of 
its dual conflicting missions: service and enforcement. Immigrants who 
apply to become citizens wait up to two years in large cities. The INS 
deports 112,000 illegal immigrants a year, fewer than half the 275,000 
who enter illegally each year or stay after their visas expire.
    Representative Rogers captured the essence of the problem in 
stating ``The missions and jobs they're charged with are too big and 
too important to be botched, and that's what they've done, botched 
their job''.
    It is apparent that there is a broad, bipartisan consensus in 
Washington for the clear separation of immigration law enforcement from 
benefit disbursement. There has also been a wide spectrum of thought on 
how best to attack this extremely important problem. Sentiment runs the 
gamut from the Commission on Immigration Reform (CIR) endorsement of 
piece-mealing out different functions to State and Labor to affording 
INS more time to get its house in order with the internal separation 
recommended by Booz-Allen. I would submit to this Body today that the 
citizens and the country cannot afford any further delay in rectifying 
this problem.
    FLEOA feels strongly that the solution lies in the middle of that 
spectrum. As I travel to the numerous FLEOA chapters throughout the 
country, the topic most on the minds of the more than 600 beleaguered 
INS special agents who currently belong to FLEOA is the urgent need for 
a substantive and dynamic reorganization of the immigration law 
enforcement mission. Immigration law enforcement must be both 
professionalized and depoliticized. Two separate bureaus within Justice 
for immigration enforcement and benefit disbursement will provide the 
essential specialization to resolve ``mission overload''. At the same 
time, enforcement and service will have the requisite communication and 
coordination through oversight by the Justice Department. This will 
avoid a constant budget battle between the totally different, but 
equally important, missions of enforcement and service. In addition, 
law enforcement management officials will not be in a position of 
influencing benefit decisions and vice-versa, thereby eliminating the 
possibility of a ``tilt'' in emphasis by a single administrator or top 
agency management toward, or against either function.
              what should immigration enforcement do well
    A 1991 General Accounting Office (GAO) General Management Report 
entitled Immigration management: Strong Leadership and Management 
Reforms Needed to Address Serious Problems, identified changes in the 
evolving INS enforcement mission. The report noted, ``During this 
period INS saw its enforcement mission evolve from one aimed primarily 
at interdicting aliens at or near the border to one with increased 
emphasis on investigative work and drug interdiction.'' GAO recommended 
the consolidation of all field enforcement functions, including Border 
Patrol and District enforcement functions under a single official 
within a geographic area.''
    The consolidation of enforcement functions will not only alleviate 
the problem of overlapping enforcement programs, but will enhance the 
ability to maintain consistent service and enforcement postures 
throughout the United States. The variances in District Office policies 
relating to service functions should be greatly reduced when District 
Directors are relieved of the responsibility of carrying out 
simultaneous enforcement efforts.
    Enforcement efforts will be more uniform in application, and the 
overlapping functions of the Border Patrol and Investigations can be 
substantially reduced or eliminated altogether. This can be 
accomplished through development of Enforcement Sectors and the 
integration of enforcement components within that structure.

                     enforcement sector components

    The establishment of integrated sub-units at the field level would 
ensure an appropriate level of specialization while maintaining 
flexibility, and would facilitate a cooperative and balanced approach. 
Frankly, the establishment of a Chief Enforcement Officer who 
supervises all enforcement components in a particular field enforcement 
sector and reports to the Bureau of Immigration Enforcement 
Headquarters Director, is an idea whose time has come. This concept 
begs for congressional attention. It is needed to overcome the 
inefficient and incredibly confusing status quo or even the halfsteps 
that are envisioned under an internal benefits-versus-enforcement split 
within INS.
                              borderpatrol
    The Border Patrol is the largest enforcement component within INS, 
with considerable growth in the recent past to approximately 8,000 
agents on duty. The INS is now the largest federal agent force at 
12,403 total immigration officers, with more armed agents than either 
the Bureau of Prisons or the FBI. The Border Patrol has accounted for 
roughly two-thirds of that fiscal growth.
    The traditional responsibility of the Border Patrol is patrolling 
the border between ports of entry. In recent years, the span of Border 
Patrol activities has extended to include drug interdiction and 
tactical operations. Under the new immigration law enforcement bureau 
concept, a Deputy Chief for Border Patrol Operations would report to 
the Chief within a respective Enforcement Sector.
                             investigations
    The Investigations Division is the general and criminal 
investigative arm of the ``Enforcement Sector,'' and should be 
responsible for all complex, protracted investigative activities. It is 
FLEOA's recommendation that the Investigations component operate in a 
manner similar to that of most major federal investigative agencies and 
detective bureaus. Investigative activities should place more emphasis 
on proactive criminal investigations in the following functional areas: 
anti-smuggling, benefit application fraud, document fraud, ``sensible'' 
worksite enforcement, and participation in multi-agency task forces 
including OCDETF, Joint Terrorism Task Forces, Violent Gang Task 
Forces, and INS-led Community Based Criminal Alien Task Forces. This 
division would be overseen by a Deputy Chief for Investigative 
operations, reporting to the Chief of the Enforcement Sector.
    The Investigations Division employs approximately 2,000 special 
agents today for the entire interior of the United States. The 
Administration, itself, estimates that for every one alien apprehended 
by the Patrol, two get through and that approximately 42 percent of the 
current 6,000,000 illegal alien population entered the country with a 
valid visa and simply overstayed that visa. Budget increases for the 
Division under the Administration's priority emphasis on immigration 
have been modest by anyone's standards. While the aforementioned 
increase in INS Border Patrol positions was appropriated and paid for 
by the Congress--the same was not true for increases for the 
Investigations Division. The addition of 1,200 special agents under the 
Illegal Immigration and Immigrant Responsibility Act (IIRAIRA) of 1996, 
(300 visa overstayer Special Agents/investigators in fiscal year 1997--
300 anti-smuggling and employer sanctions Special Agents/investigators 
in fiscal year 1997, fiscal year 1998 and fiscal year 1999) was 
authorized but not appropriated for by the Congress. In short, no 
agents at all.
    Congress must begin to strike a balance between enforcement on our 
borders and enforcement in the interior. A total focus on the first 
line of defense will lead to only a hollow victory with word of mouth 
rapidly traveling back to the source countries that one must merely 
make it across the border in order to attain this new form of 
unsanctioned amnesty.
    Prompted by a then current estimate of 5,000,000 illegal aliens in 
the country, The Wall Street Journal wrote that ``immigration is 
becoming an issue deep in America's heartland as legal and illegal 
immigrants are pulled well beyond the border areas in search of 
employment.'' The article illustrated one of the most frequently 
traveled routes used by alien smugglers--1-80 from the California coast 
through the Mid-West and on to Chicago. An analysis of that route 
reveals the shortage of INS criminal investigators in the interior 
states through which that route passes:

  <bullet> Nevada--eleven special agents

  <bullet> Utah--six special agents

  <bullet> Wyoming--one special agent

  <bullet> Nebraska--fourteen special agents

  <bullet> Indiana--four special agents

    While it is true that California and Illinois have relatively large 
contingents of INS Special Agents, even those numbers are insufficient 
to cope with a problem of this magnitude. The latest Census Bureau 
figures list 1,875,000 illegals in California or 4,630 per agent. In 
order to be effective, it is necessary that immigration law enforcement 
be comprehensive and balanced.
    Pursuant to a directive by the Subcommittee on Commerce, Justice, 
State and Judiciary of the House Appropriations Committee, the INS has 
been developing a long overdue comprehensive, mission-oriented 
integrated interior enforcement strategy that together with its border 
control strategy, would effectively determine the application of 
enforcement priorities and resources throughout the United States. The 
required report was due on April 1, 1998 but was never received until 
March 30, 1999, after repeated promptings. This strategy would focus 
around an integrated effort to deter and remove unlawful presence and 
unlawful activities in the United States. The mission would be achieved 
by prioritizing operational activities. For example, ``sensible'' 
worksite enforcement should and would be tied into the current anti-
smuggling strategy that targets notorious and/or abusive employers who 
contract for smuggling loads with identified criminal syndicates. This 
is a common sense approach to create a deterrent effect through 
successful criminal prosecutions of the most egregious violators. In 
the weighing contest with the current extremely limited interior 
resources, it is evident that those resources should be utilized first 
and foremost against criminal aliens and other criminal violators of 
the Immigration and Nationality Act (INA).
                         detention/deportation
    The Detention/Deportation component is responsible for the care and 
custody of the alien population detained by the Enforcement Sector; it 
is responsible for managing the alien docket and bond control, and for 
arranging removal of aliens from the United States. FLEOA believes that 
this component should also be responsible for the processing and 
removal of all foreign nationals incarcerated in federal, state, and 
local correctional institutions or jails. The Deputy Chief for 
Detention and Deportation Operations would oversee this unit, and would 
report to the Chief Enforcement Officer.
                              inspections
    The Inspections component is responsible for the inspection of 
applicants seeking admission to the United States at air, land and sea 
ports of entry. The Inspections Division facilitates an integrated 
approach to border management and promotes cooperation with other 
inspectional agencies such as the Customs and Public Health Services. 
As with the others, the Deputy Chief for Inspections Operations would 
report to the CEO.
                              intelligence
    The Intelligence component within the Enforcement Sector should 
play an integral role in support of the other enforcement components. 
Intelligence officers should be integrated into each field enforcement 
component unit. The Deputy Chief for Intelligence and staff would be 
responsible for the collection of information, analysis of information, 
and reporting of intelligence product upward through the organization 
and outward to other components. The Deputy Chief would also serve as a 
primary liaison point with the Directors of Adjudications Service 
Centers, Directors of Asylum Offices, and any enforcement units 
remotely posted to the field benefits offices, adjudications service 
centers or asylum offices, to assist in their anti-fraud efforts. The 
Deputy Chief for Intelligence Operations would report to the CEO.
    Mr. Chairman, I would respectfully submit that upon creation of the 
standalone enforcement bureau, it is not necessary to reinvent the 
wheel but merely adopt tried and true successful practices of modern 
day law enforcement entities. For example, virtually all municipal, 
county and state law enforcement organizations of significant size are 
composed of distinct investigative and patrol divisions--the Los 
Angeles County Sheriffs Office provides an excellent example of a well 
respected law enforcement organization that centralizes command and 
control over the divergent functions of patrol, investigations and 
detention. Even the Royal Canadian Mounted Police (RCMP), although 
operating in a different national and enforcement environment, is 
structured similarly at the national and field level.
    Implementation of Enforcement Sectors would facilitate a 
cooperative and balanced approach to enforcement of our nation's 
immigration laws. In turn, you will then begin to see the 
accountability and productivity that our citizens not only deserve but 
are demanding of immigration enforcement.
    For many years, the INS was derisively referred to as a stepchild 
within the Department of Justice. In the 1980s, a Main Justice official 
told The Washington Post that the Department had ``no idea what they do 
over there''--a reference to the physical distance between the Main 
Justice Building and the INS Headquarters in Washington, D.C. More 
importantly, this aside expressed the apathy and perhaps disdain with 
which many prior Administrations regarded the immigration issue. All 
that has changed and the Main Justice bureaucracy must change at the 
same time that the independent immigration enforcement bureau is 
created through legislation. Specifically, there is no office at the 
Justice Department exclusively charged with immigration policy 
development. That must be rectified under the oversight of a new 
Associate Attorney General who would coordinate and facilitate 
communication between the various Justice components involved in this 
issue. The Department of Justice clearly has the clout to serve as a 
major forum for immigration policy making, but it rarely exercises such 
authority. The immigration issue is based upon law and should not be 
dictated by the politics of the moment. FLEOA would stress that the 
Director of the new Enforcement Bureau must be guaranteed freedom from 
political interference.
    Mr. Chairman, FLEOA strongly urges Congress, through the 
appropriate Subcommittees, to adopt into legislation the already 
carefully considered recommendations of both chambers for a substantive 
and complete reorganization of the INS. INS District Directors face 
severe pressure to provide services for aliens, and when confronted 
with inadequate resources, have frequently used enforcement agents as a 
labor pool to perform non-enforcement duties. This practice has 
continued for over twenty years and shows no signs today of 
diminishing. We believe that diversion damages the professional image 
of immigration law enforcement officers, it diminishes their capacity 
to provide assistance to other federal, state and local law enforcement 
agencies and the communities they serve, and it fails to provide 
protection for our society at large.
    INS, as did the IRS until very recently, struggles under an 
obsolete and confused organizational structure. Without the creation of 
a distinct bureau for immigration law enforcement with the requisite 
federal law enforcement chain of command, it is unlikely that the 
legislative innovations passed by the 104th Congress in 1996 will ever 
be used to their full potential. Only through streamlining the 
bureaucracy, overcoming institutional inertia, and establishing balance 
through a separation of functions, can modern day immigration law 
enforcement be successful.
    The separation of immigration benefit disbursement from law 
enforcement would allow immigration agents in the interior and on the 
border to focus solely on enforcement activities, in accordance with a 
standard federal law enforcement chain of command. Repeated headlines 
in newspapers throughout the country on alien smuggling, foreign 
narcotics trafficking and international terrorism demonstrate that our 
nation cannot afford anything less. I ask this Subcommittee to do 
everything within its power to effect this change for the good of our 
nation and the preservation of the world's most generous system of 
legal immigration. The creation of a new Bureau of Immigration 
Enforcement will allow this to pass.
    On behalf of FLEOA, and the many dedicated men and women who risk 
their lives enforcing our immigration laws, I appreciate your time and 
attention, and the opportunity to share our views. Thank you.

    Senator Abraham. Let me just ask, obviously, we have heard 
some very powerful statements from each of you and we will 
probably have additional questions we may submit in writing. I 
have a couple of things I wanted to ask you to all comment on.
    There are some disagreements we heard expressed here today 
with respect to a few of the issues that are dealt with in the 
bill, and I know that among the panel here, that you are not 
all necessarily in agreement on each of these points. I do not 
want to start a ``Crossfire'' type setting here like the TV 
show, but what I would like is to ask each of you to, if you 
have a position on this issue or if your organization does, to 
express it and give maybe a very brief statement of the basis 
for it, just to sort of flesh out the record on some of these 
things.
    Let me start with a question about inspections, because 
there is some debate as to whether that should be something 
that is a central sort of part of the operation under the 
person, the Associate Attorney General, the individual who 
would be at the top of the operation, or whether or not it 
should be fully located within the enforcement division. We 
heard disagreement expressed by a couple of the members here 
about that today.
    I know, as I said, several of you have different views on 
this, and if you have those views, I would like to hear what 
they are and why, either yes or no and why. We will start with 
you, Chief.
    Mr. Berg. Well, Mr. Chairman, we do have different views on 
inspections. Inspections has always been a problem, even in the 
current structure, and the main reason is because inspectors 
are not 6(c) law enforcement-covered. So if they are placed 
within the new Bureau of Enforcement, which in the language of 
the bill should be in the best practices of the FBI and DEA, 
you are looking at a Bureau of Enforcement that is a pure law 
enforcement bureau.
    So if the inspections program is not given, legislatively, 
I suspect, 6(c) or law enforcement coverage, what operationally 
will happen within that bureau, then, is there will have to be 
two training academies maintained and the career paths within 
the Bureau of Enforcement will become extremely bifurcated. I 
mean, I do not know how they are going to cross each one. So 
operationally, it will cause great problems.
    The other thing is, if they are given 6(c) coverage and 
placed within the bureau, those things can be overcome, but 
then at your ports of entry, you are going to have part of your 
force with 6(c) coverage and part of your Customs inspector 
force not 6(c) covered. So there are some real problems with 
what to do with inspections.
    Of course, the third thing is, most of their duties, are 
they enforcement duties or are they expediting commerce and 
people?
    Senator Abraham. I appreciate that.
    Mr. Berg. We have some real operational problems with 
placing them within that bureau without 6(c) law enforcement 
coverage.
    Senator Abraham. As I said, I am going to ask each of you 
who cares to to comment today. You do not have to if it is not 
within your realm of focus, but also to follow up, maybe with 
perhaps an expanded basis and so on. Mr. Leiden, do you want to 
comment?
    Mr. Leiden. Yes. This is an issue that we have addressed, 
as well, and I think that arguments can be made on both sides 
because it is a function with responsibilities. But we come 
down on the side of thinking that it is appropriate for 
inspections to be in the Associate Attorney General's office 
and not in enforcement. We see the vast majority of the 
activity of inspectors is, in fact, adjudicating entries, that 
is, making findings of fact and conclusions of law, to be 
profound about it, but that is really what they are doing, is 
they are making judgments.
    To me, the metaphor is they are the Department of Motor 
Vehicles and they are very different than the traffic cops who 
are chasing down law breakers. They are issuing licenses, they 
are issuing registrations, and renewing them.
    We are also concerned, and I think this is what tips the 
balance for us, is there is a quasi-judicial aspect of this 
position, and particularly in the case of people seeking refuge 
and asylum seekers, where a decision has to be made on the 
spot. Is this someone you are going to put back on the plane or 
is this someone who is fleeing persecution and death and needs 
to really get the haven of the United States' asylum laws?
    I think that we want our law enforcement officers to really 
be looking for law violations and to be pursuing them and 
prosecuting them and causing deterrent, and this role, I think, 
is a somewhat judicial role. Therefore, we think it is 
appropriate that it be seen as an adjudications function 
primarily with some enforcement aspect.
    And then finally, I think that inspections, from our point 
of view, is just in the chain of adjudication. The petition is 
filed, the petition is approved. The visa is issued, the visa 
is used at the border. I can see in a career path, you see the 
fruition of your work at a service center, at a district 
office, coming back at the port of entry when someone applies 
for admission. Thank you.
    Senator Abraham. Mrs. Yoskowitz.
    Mrs. Yoskowitz. This is beyond my realm and I prefer not to 
comment at this time. Thank you.
    Senator Abraham. That is fine. That is fine. Mr. Bonner.
    Mr. Bonner. As you can probably understand, I have strong 
feelings on this issue. We feel that----
    Senator Abraham. We wanted to give everybody a chance to 
comment.
    Mr. Bonner. Right. We feel that if it looks like a duck, 
walks like a duck, quacks like a duck, it is a duck. These 
people enforce laws. They get assaulted in the line of duty. 
Some have given their lives in the line of duty. They make 
numerous arrests, seizures. They are law enforcement officers.
    Putting them under the umbrella agency of the Officer of 
the Associate Attorney General, we feel perpetuates the problem 
that exists now for all of the INS programs in that if you have 
a person who is enforcement-minded, then they emphasize 
enforcement. If you have someone who is service-minded, they 
emphasize service. So they blow with the political wind.
    We feel that the cut should be made, put them in 
enforcement, treat them like law enforcement officers. Yes, it 
will cost a little more money to compensate them. I think that 
overcomes Chief Berg's objection that they would be in 
enforcement but would not have the same standards. I think they 
should be treated like law enforcement officers in all 
respects.
    Senator Abraham. Mr. Gallo.
    Mr. Gallo. Just briefly, Mr. Chairman. Basically, the 
inspection division is the closest to the middle ground, on one 
hand, the adjudication of people coming in, and on the other 
hand, being almost the front line for the investigations branch 
to work further investigations.
    It is a quandary that they are in, and your legislation 
kind of deals with it by leaving them in the middle with 
reporting to the Associate Attorney General, which, unless 
further looked at, is probably going to be the way to go, but 
you are going to have to look at their--they are very important 
to the enforcement side, as well as they are also very 
important to the benefits side. They are definitely in that 
middle gray area.
    Senator Abraham. It is obviously one of the harder calls 
that we made in the process of drafting the legislation, but I 
think it is important for the record here to demonstrate that 
there are varied opinions and the rationale for each of them.
    I am going to ask just one more of these sorts of questions 
and then I think, in light of the time, we will bring the 
hearing officially to an end, although, as I said, we will have 
the record open.
    There has been some comment, or I think there is a certain 
school of thought, perhaps, that suggests that the Associate 
Attorney General level leadership position, as to the extent of 
responsibility that would be housed in that post as opposed to 
the two, as we contemplate them, at least, the two branches of 
enforcement and service.
    I guess I have, and we tried to draft the legislation in a 
fashion that would give a lot of strength to the two individual 
areas because we think they really need strength and they need 
to have a person in charge that is widely known to the Members 
of Congress who, at least in the Senate, they were confirmed. 
Right now, if we were to ask our colleagues who held the 
responsibility for the service operations of the INS, I will 
bet no one could answer that question, and the same is probably 
true in the House of Representatives. There are darn few 
members. It seems to me we need somebody in that job, as well 
as the enforcement side, who has the kind of familiarity to the 
Congress, as well as the accountability that is required.
    The question is, does the person who would be, under at 
least our legislation, superior to those individuals, what 
would be their duty? Are they merely to be sort of supervisory 
or coordinating or are they to give direction and leadership?
    I believe the draft that we have of our legislation is in 
the latter category, where they would be the ultimately 
responsible individual brought before Congress on immigration 
issues. But some have said that that, perhaps, should be a 
less-strong position and that we should, maybe for purposes of 
moving forward, that we should, in effect, put the real 
strength in the two branches.
    I am curious as to how you all see it. I believe, at least, 
Mrs. Yoskowitz addressed that, at least in part, in her 
comments, so we know your thoughts, and I am wondering if any 
of the other members here would like to make a comment. We will 
start with you, Chief.
    Mr. Berg. I think you have to put the strength in the 
directors of each bureau and hold them accountable because they 
are going to have separate focused missions that they need to 
do and they need to be held accountable. I would envision that 
the Associate Attorney General would have more of an oversight 
role of both of them.
    One of the things that we were very concerned with was 
putting too much shared services, management support functions 
in the Associate Attorney General level and the fear would be 
that you would create a status quo INS agency one level above 
the directors. It is essential that each one of those directors 
have control over their personnel, procurement, training, and 
other issues like that. Otherwise, how can we hold them 
accountable to get the mission completed?
    Senator Abraham. Mr. Leiden.
    Mr. Leiden. This is an issue that we have thought a lot 
about, as well. I certainly agree that there needs to be a 
strong leader of each bureau who can be accountable for goals 
that are set for accomplishment by that bureau, and the 
question is, where are the goals set? I think that the setting 
of the goals, the setting of policy, it makes sense that that 
be done at the Associate Attorney General or some superior 
officer level so that there can be coordination.
    There have been times in the past when enforcement actions 
and adjudication service programs could have been seen in 
conflict but for a coordination of what national priorities are 
and what national policies are, and I think it is important 
that the buck stops someplace in the Justice Department and 
that it stops with someone who gives full-time attention to 
both bureaus and someone who can give full-time attention to 
assessing how progress is made towards achieving this goal.
    Senator Abraham. Mr. Bonner, do you want to comment?
    Mr. Bonner. I think you need someone at the top who speaks 
with one voice on these issues. The natural tendency of law 
enforcement folks is to emphasize law enforcement and the 
natural tendency of the folks who would be in the service 
branch would be to emphasize the service, and that is 
understandable and I think it is entirely appropriate. But 
where you have these feuds that would erupt, you need somebody 
to step in and say, this is the way it is going to be.
    Senator Abraham. Mr. Gallo.
    Mr. Gallo. You need someone who is strong, independent, and 
probably appointed for a set term, looking at the Director of 
the FBI, appointed for a 10-year term. There is a bill pending 
now before the Senate to appoint the Customs Commission to a 5-
year term. You need a strong and independent leader. We do not 
have attorneys general and deputy attorneys general who are shy 
and introverted people. If they need to settle a dispute 
between the Director of the FBI and the Administrator of DEA, 
you have to feel comfortable with your oversight of the Justice 
Department to have that strong leader, the ultimate leader 
being the Attorney General and then the President. But as far 
as the bureau directors, you need a strong, trained career law 
enforcement or career benefits person in charge.
    Senator Abraham. We appreciate all of you being here today. 
As I said, we will keep the record open for additional 
questions that might come along, either from our office or 
others who were not able to participate or the other two 
Senators.
    I think that, just to put this in context, there is 
certainly action going on in this arena in the House. We want 
to make sure that the Senate moves forward, as well, and we 
will work to that end. We will talk, certainly, with our 
colleagues on the other side of the Capitol as we move forward.
    But we really appreciate your input because that has been a 
helpful part of the process for me today, and appreciate our 
audience participation here today, as well. It was nice to have 
a good level of interest demonstrated in these topics.
    With that, the hearing is adjourned.
    [Whereupon, at 4:01 p.m., the subcommittee was adjourned.]

</pre></body></html>
